<html>
<title> - NOMINATION OF LEON PANETTA TO BE DIRECTOR, CENTRAL INTELLIGENCE AGENCY</title>
<body><pre>[Senate Hearing 111-172]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-172
 
 NOMINATION OF LEON PANETTA TO BE DIRECTOR, CENTRAL INTELLIGENCE AGENCY

=======================================================================



                                HEARINGS

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 5, 2009
                            FEBRUARY 6, 2009

                               __________

      Printed for the use of the Select Committee on Intelligence


 Available via the World Wide Web: http://www.access.gpo.gov/congress/

                                 senate



                  U.S. GOVERNMENT PRINTING OFFICE
52-741                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    SELECT COMMITTEE ON INTELLIGENCE



           [Established by S. Res. 400, 94th Cong., 2d Sess.]
                 DIANNE FEINSTEIN, California, Chairman
              CHRISTOPHER S. BOND, Missouri, Vice Chairman
JOHN D. ROCKEFELLER IV, West         ORRIN G. HATCH, Utah
    Virginia                         OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAXBY CHAMBLISS, Georgia
EVAN BAYH, Indiana                   RICHARD BURR, North Carolina
BARBARA A. MIKULSKI, Maryland        TOM COBURN, Oklahoma
RUSSELL D. FEINGOLD, Wisconsin       JAMES E. RISCH, Idaho
BILL NELSON, Florida
SHELDON WHITEHOUSE, Rhode Island
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                     David Grannis, Staff Director
                Louis B. Tucker, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk
                                CONTENTS

                              ----------                              

                            FEBRUARY 5, 2009

                           OPENING STATEMENTS

Feinstein, Hon. Dianne, Chairman, a U.S. Senator from California.     1
Bond, Hon. Christopher S., Vice Chairman, a U.S. Senator from 
  Missouri.......................................................     4

                                WITNESS

Panetta, Leon, Nominee to be Director of the Central Intelligence 
  Agency.........................................................     6

                         SUPPLEMENTAL MATERIALS

Prepared Statement of Senator Barbara Boxer......................     3
Prepared Statement of Leon Panetta...............................    10
Prepared Statement of Senator Russ Feingold......................    21
Questionnaire for Completion by Presidential Nominees............    42
Prehearing Questions and Responses...............................    66
Questions for the Record and Responses...........................    89
January 30, 2009 Letter from Robert I. Cusick, Office of 
  Government Ethics, to Senator Dianne Feinstein.................   100
January 8, 2009 Letter from David Abshire to Senator Dianne 
  Feinstein......................................................   122

                              ----------                              

                            FEBRUARY 6, 2009

                                WITNESS

Panetta, Leon, Nominee to be Director of the Central Intelligence 
  Agency.........................................................   124


 NOMINATION OF LEON PANETTA TO BE DIRECTOR, CENTRAL INTELLIGENCE AGENCY

                              ----------                              


                       THURSDAY, FEBRUARY 5, 2009

                               U.S. Senate,
                  Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, 2:34 p.m., in Room 
SDG-50, Dirksen Senate Office Building, the Honorable Dianne 
Feinstein (Chairman of the Committee) presiding.
    Committee Members Present: Senators Feinstein, Rockefeller, 
Wyden, Bayh, Mikulski, Feingold, Nelson of Florida, Whitehouse, 
Levin, Bond, Hatch, Snowe, Chambliss, Burr, Coburn, and Risch.

 OPENING STATEMENT OF HON. DIANNE FEINSTEIN, CHAIRMAN, A U.S. 
                    SENATOR FROM CALIFORNIA

    Chairman Feinstein. The hearing will come to order.
    The Senate Select Committee on Intelligence meets today to 
consider the nomination of Leon Panetta to be Director of the 
Central Intelligence Agency. I'd like to proceed in this way: 
I'll make a short opening statement and then turn to the Vice 
Chairman to make his statement. We will then use the early bird 
rule--and I'm glad the early birds are here--for five-minute 
rounds of questions and have a second round, if needed.
    Now, we're due to have a whole series of stacked votes on 
the stimulus, the latest report is, beginning around 3:30. We 
have called and asked to please delay that. If it's possible to 
delay to 4:30--perhaps the staff could call again--we might be 
able to get through the hearing. What worries me is, when 
they're stacked votes--and they're 10-minute votes--it's 
difficult for Members to get back. So we'll just have to be a 
little flexible, Mr. Panetta, as we move around.
    I'd like to welcome President Obama's nominee to be the 
Director of the Central Intelligence Agency. Senator Boxer was 
going to be here to introduce him, but cannot due to another 
pressing commitment with the Majority Leader.
    So I would like to combine with my statement with a brief 
introduction of Mr. Panetta. He was born in Monterey, 
California. His parents, Carmelo and Carmelina, ran a local 
cafe and later purchased a walnut ranch, which he still owns.
    He majored in political science at Santa Clara University, 
where he graduated Magna Cum Laude in 1960. In 1963, he 
received his J.D. from Santa Clara University as well. After 
law school, he served in the United States Army from 1964 to 
1966 and attended the Army Intelligence School. In 1966, Mr. 
Panetta joined the Washington, D.C., staff of Republican 
Senator Thomas Kuchel of California.
    In 1969, he served as Director of the Office of Civil 
Rights in the Department of Health, Education and Welfare in 
the Nixon Administration. From 1970 to 1971, he worked as 
executive assistant to New York City Mayor John Lindsay. 
Afterwards, he returned to Monterey, to private law practice. 
In 1976, he ran and won election to the United States House of 
Representatives, and he served in that house for 16 years. 
During that time, he also served as Chairman of the Budget 
Committee.
    In 1993, he joined the Clinton Administration as head of 
the Office of Management and Budget. In July, 1994, Mr. Panetta 
became President Clinton's chief of staff. He served in that 
capacity until January of 1997, when he returned to California 
and founded and led the Leon and Sylvia Panetta Institute for 
Public Policy at California State University at Monterey Bay. 
Mr. Panetta and his wife, Sylvia, have three sons and five 
grandchildren.
    It's very safe and fair for me to say that he has a 
reputation for intelligence and integrity. And that, certainly, 
has been my personal experience with him, as well. In speaking 
with President Obama and Mr. Panetta multiple times, I am 
convinced that Mr. Panetta will surround himself with career 
professionals, including Deputy Director Steven Kappas. I know 
Mr. Panetta has immersed himself in CIA matters since being 
nominated, and his top priority, if confirmed, will be to 
conduct a complete review of all of the Agency's activities.
    Moreover, I strongly believe that the CIA needs a Director 
who will take the reins of the Agency and provide the 
supervision and oversight that this agency, which operates in a 
clandestine world of its own, must have. President Obama has 
made clear that a selection of Leon Panetta was intended as a 
clean break with the past, a break from secret detentions and 
coercive interrogation, a break from outsourcing its work to a 
small army of contractors, and a break from analysis that was 
not only wrong, but the product of bad practice, that helped 
lead our nation to war.
    President Obama said, when announcing this nomination, that 
this will be a CIA Director ``who has my complete trust and 
substantial clout.'' Now, this is a hugely important but 
difficult post. The CIA is the largest civilian intelligence 
agency with the most disparate of missions. It produces the 
most strategic analysis of the intelligence agencies, and it is 
the center for human intelligence collection.
    It is unique in that it carries out covert action programs 
implementing policy through intelligence channels. And so the 
committee's job is clear--to make sure that Leon Panetta will 
be a Director that makes the CIA not only effective in what it 
does, but also makes sure that it operates in a professional 
manner that reflects the true values of this country.
    I am encouraged by our conversations and with your 
responses to the prehearing questions, Mr. Panetta. You made 
clear that you will provide independent and unvarnished advice 
to the President and policymakers. You describe the lessons 
learned from the 2002 National Intelligence Estimate on Iraq's 
weapons of mass destruction. You pledged to review the CIA's 
over-reliance on contractors and not to use contractors for 
interrogation. Very importantly, you explain the obligation to 
keep Congress fully and currently informed, and your view that 
this should apply to the entire committee, not just the 
Chairman and the Vice Chairman.
    And, as a long-standing member, or just a member, of this 
committee, I really appreciate that. The responses to all of 
our pre-hearing questions will be posted on the committee's Web 
site today.
    I now turn to the Vice Chairman for his opening statement 
before having Mr. Panetta give his opening statement as well.
    [The prepared statement of Senator Boxer follows:]
              Prepared Statement of the Hon. Barbara Boxer
    Good morning Chairman Feinstein, Vice Chairman Bond, and members of 
the Committee.
    Thank you for giving me the opportunity to introduce my former 
colleague and fellow Californian, Leon Panetta, President Obama's 
nominee to be the Director of the Central Intelligence Agency.
    Leon Panetta is a person of vast experience and integrity.
    If President Obama wants to build a spirit of trust and 
accountability in the Central Intelligence Agency, he has picked 
exactly the right person.
    Mr. Panetta brings to this post decades of public service and the 
respect of countless individuals in Congress, the Executive Branch, and 
throughout America.
    Mr. Panetta was born in the beautiful city of Monterey, California. 
His parents were immigrants, and he went on to earn both his bachelor 
and law degree from Santa Clara University, and later serve in the 
United States Army.
    After coming to Washington in 1966, Mr. Panetta rose to become the 
Director of the U.S. Office for Civil Rights where he passionately 
fought for the desegregation of public schools.
    I saw him bring that same passion to his work as a Member of the 
House of Representatives, where I am proud to have served with him. I 
will never forget his successful effort to establish the Monterey Bay 
National Marine Sanctuary, which preserved this vital coastal resource 
for generations to come.
    And I will also never forget that it was Leon who worked with me on 
the first ever funding to fight AIDS.
    As we all know, his commitment to public service continued after he 
left Congress. As the Director of the Office of Management and Budget 
under President Clinton, Mr. Panetta learned the intricacies of the 
federal budget process and, most importantly, how to effectively set 
and manage a budget.
    If confirmed, this knowledge will serve him particularly well.
    As President Clinton's White House Chief of Staff, he engaged the 
highest levels of the U.S. intelligence community on our nation's most 
important national security issues.
    And as a member of the highly respected Iraq Study Group, Mr. 
Panetta served with Secretary James Baker and former Representative Lee 
Hamilton to formulate bipartisan recommendations for a way forward in 
Iraq.
    Mr. Panetta's record speaks for itself. He knows how to get things 
done in this town.
    Perhaps most important, I know that Mr. Panetta will tell President 
Obama not what he wants to hear, but what he needs to hear. President 
Obama has made it clear that intelligence should be used to make good 
policy, not to sell bad policy.
    I am also confident that as the Director of the CIA, Mr. Panetta 
will work to restore the standing of the United States in the world.
    He has already taken a step in that direction by unequivocally 
condemning the use of torture.
    So Madam Chairman, as you can see, I am very pleased to introduce 
Mr. Panetta, and know that he will work to defend our country from 
threats, while upholding our values.
    I hope that he will get a favorable vote from your committee.
    Thank you.

OPENING STATEMENT OF CHRISTOPHER S. BOND, VICE CHAIRMAN, A U.S. 
                     SENATOR FROM MISSOURI

    Vice Chairman Bond. Thank you very much, Madam Chair and 
Mr. Panetta.
    We welcome you here today for this hearing. We have had 
pleasant working relationships during the 1990s--not always 
agreeing, but certainly very forthright and direct. The CIA is 
an important player in our national security, and to be 
nominated for that position is a great honor.
    There's been some commentary on it in the past few weeks, 
and today you'll have the opportunity to respond to some of the 
concerns that have been raised about your position and to 
describe your vision for the CIA.
    I've had constructive meetings with you over the past few 
weeks, and I have the confidence that you have the drive and 
the focus for a tough assignment like this, and I thank you for 
your willingness to serve.
    That said, many were surprised by your nomination, because 
many of us believed that the next CIA Director should have a 
professional intelligence background. And this raises a number 
of questions which we've discussed before and I will raise 
again today. First, I want to hear your understanding of the 
CIA and the vision for it and its role in the 21st-century 
operations under the authority of the DNI.
    I have questions concerning your views on various 
intelligence disciplines and a number of threats, as well as 
resource decisions for the Agency. As all American people 
expect us to serve above reproach, we'll ask some questions 
about your financial background so that we can assure people 
there's no counterintelligence concern for the nation and to 
make sure there are no financial surprises awaiting discovery. 
I know you said you're more than willing to do that, and I 
think the American people want to hear it.
    Finally, I'm interested in the quality of individuals 
you'll surround yourself with in this position. I was 
disappointed very recently to hear a rumor, confirmed by the 
DNI, that he's asked someone to serve in a sensitive position 
on an advisory panel. That person had a questionable record on 
intelligence activities and possible damage to national 
security. I spoke with the DNI yesterday and informed him that, 
while he had authority to make those decisions, I don't think 
that it should go unnoticed.
    As I recently said to Director Blair on the broader issue, 
your nomination and his come at an important time in our 
nation's history, as we continue to face threats of many 
different kinds, foremost among them, of course, the threat of 
terrorism. In the aftermath of 9/11, we learned many things 
about ourselves and the state of intelligence community 
information. There have been many changes in statute and in 
practice since then, but weaknesses remain.
    And one of the most glaring examples is the IC's failure to 
assess properly the state of Iraq's WMD programs. Your previous 
statements about the failures make it clear that you have not 
been fully briefed on this Committee's findings that were 
unanimously reported in our extensive, two-year review of the 
failures that we call our phase one prewar intelligence 
assessment on Iraq, and I hope, if you have not, you will read 
these findings carefully.
    The flawed intelligence resulting from that failure was a 
significant factor used by all policymakers in the decisions 
about Iraq. We have to ensure that failures of this magnitude 
do not recur. The American people spend a lot of money and 
trust their security to the IC, and I think we all deserve 
better.
    Now, the role of the Director has changed since September 
11th, since the passage of the Reform Act and Congress created 
the DNI with a strong sense that the IC lacked clear direction.
    There was also a consensus that the old DCI position was 
too big a job for one person and, in my opinion, one of the 
primary advantages of creating a DNI was to allow the Director 
of the Central Intelligence Agency to focus on the Agency's 
mission. For too many years we've had turf battles and power 
struggles as individual agencies and departments tried to 
protect their own piece of the pie and their budgets. I hope 
with your cooperation we can make these destructive battles a 
thing of the past.
    It's our expectation that when confirmed you will give your 
full support to the DNI. This doesn't meant there won't be 
honest disagreements or vigorous discussions, which we would 
hope would occur, but at the end of the day the DNI has to be 
the sole leader.
    Two weeks ago President Obama issued a series of Executive 
Orders relevant to the CIA's interrogation and detention 
program. I have some concerns about the impact of these 
opinions and will be interested to hear your thoughts on the 
impact on the CIA's intelligence collection capabilities and 
how you intend to implement them.
    They appear to suspend, at least temporarily, an 
interrogation program that's helped us prevent further attacks 
on our homeland. It makes it even more imperative that the CIA 
improve its capabilities in other areas, including human or 
HUMINT collection, as we refer to it in the trade, along with 
covert action and covert influence.
    I also am interested in hearing more from you about 
extraordinary renditions. That's a rendition of someone to 
another country. These practices started well before the 
September 11 attacks and I would like to discuss some of those 
with you today.
    I'm sure, too, that past and present Agency employees will 
be eager to hear whether you share Speaker Pelosi's opinion 
that certain people associated with the CIA interrogation 
program should be prosecuted. The Agency and the IC as a whole 
also must find ways to hire and retain qualified linguists in 
critical language areas. It does us no good to collect 
information if we can't translate it or use it. Given your 
background in management, I'm interested in your thoughts on 
what you would do to make these career paths more appealing or 
to bring people with those skills into the Agency.
    I hope, too, you will use your management experience to 
address a longstanding problem that has concerned many of us. I 
believe that over that past several years there has been an 
unreasonable reluctance to hold CIA employees accountable for 
poor performance or bad judgment. In some cases--and I'll go 
into specifics in another setting--these individuals have been 
promoted or otherwise rewarded. I conveyed this sentiment to 
Mr. Hayden and Mr. Kappes on several occasions because I 
believe the practice is unacceptable. And I believe from our 
previous discussions you would agree.
    The committee has adopted a provision I sponsored and I 
hope will become law in the near future to give the DNI the 
authority to conduct accountability reviews of any element in 
the IC and its personnel in relation to a failure or a 
deficiency. Now, giving the DNI authority to step in I hope 
will encourage accountability and good practices.
    Mr. Panetta, I would expect you as the Director to give 
your full support to the DNI if and when he must implement that 
authority so we can send a clear message that poor performance 
will not be necessary. But I hope it would not be necessary 
under your watch.
    With regard to intelligence experience, I encourage you to 
jump in with both feet and make frequent trips away from 
Langley. I have been in a lot of hearings and had lots of 
wonderful meetings at Langley, but I find out that unless you 
go out and see what they're doing in the field you really don't 
understand it and too often your views are clouded by a 
bureaucracy naturally existing in any large organization's 
headquarters.
    I understand that you'll be retaining some current high-
level officials and clearly they'll be familiar with the Agency 
and its work, but there's a concern they may be too familiar 
with it. I have heard some colleagues talk about how important 
it is to keep the old guard in your corner, but I for one would 
hope you would bring the changes we need in the institution and 
not be totally beholden to the old guard.
    Further, a recurring criticism of the Agency is it tends to 
be risk-averse and insular. You may or may not find this to be 
the case. In any case, I urge you to look for fresh ideas 
instead of the status quo and encourage perspectives instead of 
headquarters-centric bureaucracy.
    Madam Chair, there's a lot of ground to go over today. I 
hope we can fit it in. It will depend on the floor schedule. I 
want to move this process along, but we do need to have 
thorough hearings. Mr. Panetta, we look forward to hearing your 
views on the direction for the CIA and its programs as we fight 
to keep our nation and families safe from attack.
    As the Chair indicated, you have a long and distinguished 
career of service to the nation. I congratulate you on your 
nomination and look forward to your testimony.
    Chairman Feinstein. Thank you very much, Mr. Vice Chairman. 
Mr. Panetta.

    STATEMENT OF LEON PANETTA, DIRECTOR-DESIGNATE, CENTRAL 
                      INTELLIGENCE AGENCY

    Mr. Panetta. Thank you very much, Madam Chairman, Mr. Vice 
Chairman and members of the Intelligence Committee. I am 
honored to appear before you as the President's nominee to lead 
the Central Intelligence Agency. Let me, Madam Chairman, ask 
that my statement be made part of the record and I'd like to 
summarize it if I could.
    Chairman Feinstein. Without objection.
    Mr. Panetta. Thank you.
    I want to begin by thanking the President for placing his 
confidence in my ability to run this critical agency during a 
time of great peril but also of great opportunity. In 
particular, I want to thank you Madam Chairman, Mr. Vice 
Chairman and all of the members of the committee for the time 
that you spent with me over the past few weeks and for agreeing 
to serve as the overseers of our nation's intelligence 
services.
    And, of course, I could not have served in public life for 
40 years without the love and support of my family, in 
particular my wife of 46 years, Sylvia, and our three sons. She 
regrets not being able to be here, but she now has sole 
responsibility for running the Panetta Institute.
    In preparing for this day, I had the opportunity also to 
talk with all of the former Directors of the CIA. They gave me 
excellent advice and shared many lessons. I especially enjoyed 
talking to former President George Bush, who ran the CIA and 
later, obviously as President, become one of its important 
consumers. All of them told me to listen carefully to the 
professionals in the Agency but also to stay closely engaged 
with the Congress. And if confirmed that's exactly what I 
intend to do.
    The CIA is on the front lines in the effort to defend this 
nation. It's a professional organization. It is comprised of 
dedicated women and men whose service to America, out of 
necessity, often is unrecognized and unacknowledged. At this 
hour, there are CIA officers who are living in the most 
isolated corners of the globe; they're serving away from their 
families; they're often undercover, sometimes under fire. There 
aren't any marching bands to trumpet their valor and there are 
no monuments to mark their valor--just the quiet dedication to 
the mission.
    My youngest son, who just completed a tour of duty in 
Afghanistan as a naval intelligence officer, described CIA 
officers as silent warriors and I think that's an apt 
description.
    When President Obama asked me to lead this organization, he 
said he wanted somebody he could trust, who was independent and 
who would call them as he sees them--someone who would tell 
policymakers what they needed to know, not what they wanted to 
hear, and someone who knew how to get things done in a 
bipartisan and professional manner.
    What are the qualities I bring to this job? In a word, 40 
years of experience at key levels of government. As mentioned 
by Madam Chairman, I began my public service career in the Army 
as an intelligence officer and received the Army Commendation 
Medal for my services as an intelligence operations officer. 
Over the decades, I worked as a legislative assistant to a U.S. 
Senator, headed the U.S. Office for Civil Rights, served in 
Congress for 16 years, much of that as Chairman of the House 
Budget Committee, led a large and professional federal agency, 
the Office of Management and Budget, and served as White House 
chief of staff.
    At OMB, I was responsible for the federal budget, including 
the funds spent on intelligence activities, those involved with 
clandestine intelligence activities as well as covert actions.
    In Congress, obviously, I received a great deal of 
briefings on intelligence, as many as you do and many of you 
did that were my colleagues in the House. And at the White 
House, I participated in the PDB briefings, all of the 
intelligence briefings with the President, served on the 
National Security Council and dealt with some of the most 
sensitive intelligence our agencies produced. And during my 
recent service on the Iraq Study Group, we benefited 
tremendously from the insights that were provided by the CIA as 
well as other intelligence agencies.
    In short, what I bring is a broad range of experiences to 
this job. I know Washington, I think I know how it works, I 
think I also know why it fails to work. I am proud that in 
every agency that I had the good fortune to lead, that it 
performed its job in an outstanding manner, and I pledge to do 
the same at the CIA.
    The last several years have been a period of tremendous 
change and daunting challenges for the CIA. It's been a 
difficult period. The government-wide failure to prevent 9/11, 
the 2002 NIE that failed to determine the absence of weapons of 
mass destruction, controversies over rendition, detention, 
interrogation--these issues emerged in war, challenged 
policymakers, are well known to this committee, having consumed 
much of your time and your energy. And I know this has been a 
period that has resulted in frayed relationships between the 
White House and the Congress, between the White House and this 
committee and between the political parties. I want to put that 
era behind us.
    We are a nation at war. And since the attacks of September 
11th, the CIA has been in an operational tempo that's unlike 
anything it's experienced in its history. It was the first on 
the ground in Afghanistan, it's been asked to run spies, 
analyze threats, undertake covert action and work with other 
intelligence services to keep Americans safe.
    Let me, if I can, pay tribute to General Mike Hayden, the 
current Director of CIA, who in many ways has made a good 
effort trying to repair relationships. But most importantly, he 
has done a great job in restoring morale at the CIA and he's 
been an outstanding partner for me in this transition. I want 
to build on his successes.
    Let me make clear what I want to do if I am confirmed. I 
believe the Director should be responsible for shaping the role 
of the CIA in the 21st century to protect this nation, to keep 
it safe and to bring integrity to intelligence operations. We 
will provide credible and accurate intelligence to 
policymakers. We will remain clear-eyed about the threats that 
are out there. And we will always perform our responsibilities 
according to the law, the Constitution and our values.
    Let me outline in brief three areas that I think require my 
principal focus if I am confirmed. First, I want to work with 
the professionals who are there to get the details of all of 
our operations and to make certain that we're responding to our 
fundamental intelligence needs. In this endeavor, I will have a 
full partner in Steve Kappes, who's one of the most senior 
intelligence officers at the Agency and has agreed to serve as 
my deputy. I will rely on him and the other professional 
officers at the CIA to analyze intelligence gaps that exist and 
to do what we can to fill those gaps.
    Let me assure you, let me assure you that while I will rely 
on the professionals for their experience and for their 
judgment, the decisions at the CIA will be mine as the 
Director. We have to build on the work currently under way to 
develop a first-class workforce at the CIA that is diverse, 
that is well-trained, that is proficient in languages and 
cultures and that is prepared for the world of today and the 
world of tomorrow. We must deploy this workforce to fill our 
key gaps, which I've identified more fully in my statement.
    Obviously, what is al-Qa'ida plotting in the tribal areas 
of Pakistan, the FATA? What will it take to get Iran off of its 
dangerous nuclear path? What will be the keys to long-term 
stability in Afghanistan and in Iraq? Will North Korea give up 
its weapons program? Can we defend our networks against cyber-
attack? These are just some of the crucial areas that require 
good intelligence, and job one will be to look at the Agency 
operations and make certain that we meet these demands. Our 
first responsibility is to prevent surprise.
    Secondly, I want to focus on improving intelligence 
coordination and collaboration under the new structure. I've 
been working with Admiral Blair in the days since our 
nomination to try to create a process that will foster 
collaboration and teamwork. Admiral Blair is an outstanding 
leader, and as a combatant commander, he understands what 
jointness is all about, and he and I have pledged that we will 
keep our lines of communication open and that we will do 
everything possible to improve coordination among our 
intelligence agencies. The CIA does not operate in a vacuum. 
Every day the agency is working with dozens of other agencies, 
including DOD and the FBI. We are part of one team.
    Contrary to the views of some, I happen to believe that the 
new structure can work effectively for the CIA. Freed of its 
community management function, we can focus on management of 
human intelligence. We are primarily responsible for human 
intelligence, the gathering of that intelligence that's so 
important to the decisions that have to be made. We are 
responsible for covert action. We have tremendous operational 
strength, and my hope is to use that operational strength to 
perform the goals and the missions assigned by the DNI. We take 
the lead with our liaison partners, but we look to the DNI to 
establish the strategic goals that are so important for the 
intelligence community.
    And thirdly, I want to rebuild the relationship of trust 
with the Congress. I am a creature of the Congress and proud of 
it. I understand the role of the Congress in oversight, those 
tremendous responsibilities you have with regards to policy in 
this country. I believe the ``Gang of Eight'' process was 
overused and therefore abused. Too often, critical issues were 
kept from this committee. Keeping this committee fully and 
currently informed is not optional--it's the law, and it is my 
solemn obligation to fulfill that requirement.
    I believe that a strong partnership with this committee and 
with your counterparts in the House of Representatives will 
improve the CIA. You have a tremendous amount of expertise on 
this committee. We can learn from you and we can partner with 
you in that effort. That's not to say we'll always see things 
the same way, it's not to say that you won't question us and 
hold us accountable when appropriate. I expect nothing less. 
But our objective ought to be the same--to do everything 
possible, working together, to give the CIA what it needs to be 
successful.
    Madam Chairman and Mr. Vice Chairman, if confirmed, I will 
honor the history and professionals of the CIA. For over 60 
years, the CIA has done some heroic things to protect this 
country, and yet at the same time there have been mistakes. But 
my goal is to build on the tradition of success, of excellence 
and integrity.
    Together, I think we can turn the page to a new chapter in 
the Agency's history. I've been asked to do this job because we 
need a strong CIA that keeps us safe and upholds our values. I 
pledge I will do everything in my power to make that goal a 
reality. Thank you and I'll be happy to answer your questions.
    [The prepared statement of Mr. Panetta follows:]
                   Prepared Statement of Leon Panetta
    Madame Chairman, Mr. Vice Chairman, and distinguished Members of 
the Committee, I am honored to appear before you today as the 
President's nominee to lead the Central Intelligence Agency.
    I want to begin by thanking the President for placing his 
confidence in me to lead this critical Agency during a time of great 
peril but also great opportunity.
    In particular, I want to thank you Madame Chairman, Mr. Vice 
Chairman, the Members of this Committee, and their staffs, for the time 
they spent with me over the past two weeks and for agreeing to serve as 
overseers of our nation's intelligence services.
    And, of course, I could not have served in public life for 40 years 
without the love and support of my family, in particular my wife of 46 
years, Sylvia, who has been with me every step of the way. She regrets 
not being able to be here, but she now has sole responsibility for 
running the Panetta Institute.
    In preparing for this day, I had the opportunity to talk with most 
of the former Directors of CIA. They gave me excellent advice and 
shared many lessons learned, especially President George H.W. Bush, who 
ran CIA and, later, was its most important consumer. They all told me 
to listen carefully to the professionals at the Agency, but also to 
stay closely engaged with Congress. If confirmed, that is exactly what 
I intend to do.
    CIA is on the front lines in the effort to defend this nation. CIA 
is a professional organization, comprised of dedicated women and men 
whose service to America is, out of necessity, often unrecognized and 
unacknowledged. At this hour, CIA officers are living in the most 
austere corners of the globe--serving away from their families, often 
undercover, and sometimes under fire. There are no marching bands to 
trumpet their valor and no monuments to mark their campaigns--just the 
quiet dedication to the mission.
    When President Obama asked me to lead this organization he said he 
wanted someone whom he could trust, who was independent, and who would 
call them as he sees them. Someone who would tell policymakers what 
they needed to know, not what they wanted to hear. And someone who knew 
how to get things done in a bipartisan, professional manner.
    Those goals were precisely what led President Truman to create a 
center for intelligence in 1947. With the lessons of Pearl Harbor fresh 
in his mind, he wanted a single entity that would pull together all 
intelligence coming into the government and analyze it in a timely way, 
without the bias that was often injected by the policy agencies. CIA 
has been serving in that important role ever since, and I believe it 
continues to be one its most preeminent functions.
    I began my public service career in the Army as an intelligence 
officer, where I was proud to wear the uniform. Over four decades, I 
worked with policymakers, served in Congress, led a large and complex 
federal agency, and served as White House Chief of Staff. At OMB, I was 
responsible for the federal budget, including the funds spent on our 
clandestine activities and our covert actions. At the White House, I 
was a consumer of some of the most sensitive intelligence our agencies 
produce. And during my service on the Iraq Study Group, we benefitted 
tremendously from the insights provided by CIA and other intelligence 
agencies.
    The last several years have been a period of tremendous change and 
daunting challenges for CIA. The government-wide failure to prevent 9/
11; the 2002 Iraq NIE that missed badly on weapons of mass destruction; 
and the controversies over the laws and policies governing rendition, 
detention, and interrogation--these issues emerged in war, challenged 
policy makers, and are well known to the Committee, having consumed 
much of your time and energy.
    We are a nation at war, and since the attacks of September 11, 
2001, CIA has been on an operational tempo unlike any in its history. 
Its budget has increased. Its missions have expanded. The legal 
authorities governing CIA have shifted.
    The Agency was the first on the ground in Afghanistan. It has been 
asked to run spies, analyze threats, undertake covert action, and work 
with other intelligence services to keep Americans safe. Few areas of 
the government have changed in the past decade as much as CIA in the 
effort to protect this country.
    I believe the Director should be responsible for shaping the role 
of CIA in the twenty-first century to protect this nation, to provide 
credible and accurate intelligence to policy makers, to undertake those 
missions that will enhance our security, and to always perform our 
responsibilities according to the law and our Constitution.
    Let me outline three areas that I believe will require my 
particular focus, if I am confirmed.
    First, I want to work with the professionals to get into the 
details of all of our operations and to make certain that we are 
responding to our fundamental intelligence needs. In this endeavor, I 
will have a full partner in Steve Kappes, one of the most senior 
intelligence officers at the Agency, who has agreed to serve as my 
deputy. I will rely on him and the professional officers at CIA to 
analyze precisely: (1) our intelligence, (2) the quality and 
credibility of that intelligence, (3) any gaps that exist, and (4) what 
we are doing to fill those gaps.
    Let me be specific. We know that Al Qaeda has reestablished a safe-
haven in the border region between Pakistan and Afghanistan. We know 
they want to hit us again. But we don't know where that next attack 
will come from, and we don't have answers to a range of important 
questions. How do we deny Al Qaeda its safe haven? How do we 
effectively operate against this target and their command structure? 
Where are Usama Bin Ladin and his top deputies hiding?
    We know that Iran is enriching uranium and supporting terrorists. 
But we don't know when they will have that capacity or what exactly it 
will take to get Iran off of its dangerous path.
    We know that the situation in Afghanistan remains unstable. But we 
don't know what it will take to reverse that trend, to stop the 
Taliban, or to control corruption and institute long-term stability.
    We know that there have been security gains in Iraq. But we don't 
know whether these gains will translate into political stability and 
create favorable conditions for a safe U.S. drawdown of forces.
    We know North Korea detonated a nuclear weapon in 2006. But we 
don't know whether Kim Jong-Il is prepared to give up that nuclear 
capability once and for all.
    We know that our communications networks are vulnerable to 
malicious activity and cyber threats. But we don't know what our 
adversaries are planning and what damage they are capable of 
inflicting.
    These are just some of the crucial areas that require good 
intelligence. And job one will be to look at Agency operations and make 
certain that we meet these demands. This will take time. But it is our 
most important task.
    Second, I want to focus on improving intelligence coordination and 
collaboration. Under the 2004 law passed by Congress, CIA continues to 
conduct Human Intelligence, or HUMINT, operations, but the CIA Director 
``reports'' to the DNI. The law states that the DNI is the principal 
intelligence advisor to the President. I have been working with Admiral 
Blair in the days since our nomination to create a process that will 
foster collaboration and teamwork. Admiral Blair is n outstanding 
leader. As a combatant commander, he understands ``jointness.'' And he 
and I have pledged that we will keep the lines of communication open 
between us.
    And this is an important point: CIA does not operate in a vacuum. 
Everyday, the Agency is working with the State Department, the 
military, the National Security Agency, the National Reconnaissance 
Office, the National Geospatial-Intelligence Agency, the FBI, the 
Department of Homeland Security, and others. We are part of one team, 
and I pride myself on the ability to get members of a team--in this 
case, across many agencies--to work together.
    Contrary to the views of some, I believe that the new structure can 
work effectively for CIA. The Director is freed from his community 
management function. The CIA Director has become the National Human 
Intelligence Manager--meaning our professionals are responsible for 
training, standards, and operations for HUMINT collection across the 
government. We take the lead with our liaison partners. And we can 
focus on those things that no other agency can do, such as covert 
action.
    Third, I want to rebuild a close working and consultative 
relationship with Congress. I believe the ``Gang of 8'' process was 
overused by the previous White House and, therefore, abused. Too often, 
critical issues were kept from this Committee. Keeping this Committee 
``fully and currently'' informed is not optional. It is the law. It is 
our solemn obligation.
    I believe that a strong partnership with this Committee--and with 
your counterparts in the House of Representatives--will improve CIA. 
You have a tremendous amount of expertise on this Committee. We can 
learn from you and we will partner with you.
    Finally, there is a great deal the public cannot be told about CIA 
operations without revealing the same information to those who would do 
us harm. And so, CIA confides in you--and counts on you--to provide the 
oversight that the public cannot.
    Madam Chairman, Mr. Vice Chairman,if confirmed, I pledge not only 
to follow the law, but to go a step further and endeavor, as best as I 
am able, to rebuild the trust between Congress and CIA. That's not to 
say we'll always see things the same way. That's not to say you won't 
question us and hold us accountable where appropriate--I expect nothing 
less. But our objective ought to be the same: to give the Central 
Intelligence Agency all that it needs to succeed.
    If confirmed, I will honor the history and professionals of CIA. I 
will also help turn the page to a new chapter in the Agency's history. 
I have been asked to do this job because we need a strong CIA that 
keeps us safe and upholds our values. I pledge to you that I will do 
everything in my power to make that goal a reality.
    Thank you. I would be happy to answer any questions you may have.

    Chairman Feinstein. Thank you very much, Mr. Panetta. I 
appreciate it. This is the order directly following my 
questions and those of the Vice Chairman: Senators Levin, 
Wyden, Burr, Chambliss, Feingold, Rockefeller, Coburn, 
Whitehouse, Nelson, Mikulski, Snowe, Bayh, Risch and Hatch.
    I have just some questions that are traditional, Mr. 
Panetta, quickly, and a yes or no answer will suffice. Do you 
agree to appear before the committee here or in other venues if 
invited?
    Mr. Panetta. Yes.
    Chairman Feinstein. Do you agree to send officials from the 
CIA to appear before the committee and designated staff when 
invited?
    Mr. Panetta. Yes.
    Chairman Feinstein. Do you agree to provide documents or 
any other material requested by the committee in order for it 
to carry out its oversight and legislative responsibilities?
    Mr. Panetta. Yes.
    Chairman Feinstein. Will you ensure that the CIA provide 
such material to the committee when requested?
    Mr. Panetta. Yes.
    Chairman Feinstein. And a new question that I hope will 
become part of the tradition, and you have alluded to it: Do 
you agree to inform and fully brief to the fullest extent 
possible all members of the Committee of Intelligence 
activities and covert actions rather than only the Chairman and 
Vice Chairman?
    Mr. Panetta. Yes.
    Chairman Feinstein. Thank you very much. Let me plunge 
right into this.
    Will the CIA continue the practice of extraordinary 
rendition, by which the CIA would transfer a detainee to either 
a foreign government or a black site for the purpose of long-
term detention and interrogation, as opposed to for law 
enforcement purposes?
    Mr. Panetta. No, we will not, because, under the Executive 
Order issued by the President, that kind of extraordinary 
rendition, where we send someone for the purposes of torture or 
for actions by another country that violate our human values, 
that has been forbidden by the Executive Order.
    Chairman Feinstein. Thank you. The CIA--this is one of my 
major projects--the CIA has more contractors than any other 
intelligence agency, and approximately one-third of the 
contractors of the entire community of 16 agencies. Most of 
these contractors have been hired since 9/11. Between 2001 and 
2006, the number of contractors has doubled. The intelligence 
community has estimated--and I mentioned this to Admiral Blair 
at his hearing--that the cost of contractors is $80,000 more, 
per year, on average, than the cost of a government employee.
    And the cost of contractors and employees at the CIA is 
likely to have a comparable ratio. You've mentioned that you're 
going to review all this. What specifically do you intend to do 
about it?
    Mr. Panetta. Well, I've asked the questions that you've 
raised during some of the briefings as to the extent of the 
contracting out that has taken place. I recognize that, coming 
out of 9/11, there was a need to reach out to contractors to 
try to fill requirements and responsibilities that the CIA, 
because of a lack of personnel, just simply didn't have the 
resources to do. And so obviously, a number of contracts were 
issued during that period.
    I really believe that we have a responsibility to bring a 
lot of those duties in-house, and to develop the expertise and 
the skills within the CIA to perform those responsibilities. I 
get very nervous relying on outside contractors to do that job, 
A, because I'm not sure who they respond to, but, B, sometimes, 
when an employee at the CIA goes out and is then hired by a 
contractor and then returns, it's not very good for morale at 
the CIA.
    Mike Hayden has made some progress in the effort to try to 
reduce the number of contracts and begin to build up our 
employee force to deal with those responsibilities. My intent 
is to do exactly the same thing. What I would like to see, 
ultimately, is, yes, there may be a need for contracting out 
where there are particular needs that we've got to see 
addressed, but I would like to see all of those duties and 
responsibilities eventually brought in-house to the employees 
of the CIA.
    Chairman Feinstein. Quick last question: We've discussed 
this privately; I would like to have it on the record. Last 
week, there was a front-page story about a CIA chief of station 
who has been accused of raping two women overseas. The 
allegations are very disturbing and, if true, as you know, 
completely unacceptable.
    What would be your response if such allegations came to 
your attention as Director, in terms of dealing with the 
individual in question and notifying the intelligence 
committee? Until ABC put out a press release indicating that 
they were going to do a show that evening on this subject, we 
had no formal notification.
    Mr. Panetta. As I indicated to you, Madam Chairman, I think 
that was wrong. I think when that kind of behavior comes to the 
attention of the Director of the CIA that this committee ought 
to be informed with regards to that behavior, number one. 
Number two, the level of behavior involved in this situation, I 
think, obviously, it had to be referred to the Justice 
Department, but frankly, from my point of view, I think it is 
so onerous that the person should have been terminated. And we 
have the responsibility, as Director the CIA, to implement that 
kind of termination.
    Chairman Feinstein. Thank you very much.
    Mr. Vice Chairman.
    Vice Chairman Bond. Thank you, Madam Chair.
    Mr. Panetta, to clarify what you just said, that the United 
States has sent individuals to other countries for torture, 
that's news to me. Now, I understand that during President 
Clinton's term there were approximately 80 renditions of 
terrorist suspects that occurred during your watch as chief of 
staff of the White House. An official from Human Right Watch 
was quoted as saying, ``Clinton policies, in practice, meant 
torture.'' Do you have any comments on the renditions which 
occurred during your watch as chief of staff?
    Mr. Panetta. Well, I think you'd have to define the kind of 
renditions we're talking about. Obviously, extraordinary 
renditions were, I think, the situation where we took a 
prisoner and sent him to another country for questioning. And 
oftentimes, that questioning took place under circumstances 
that did not meet our test for human values.
    Renditions have been a tool used by this government over 
the years prior to returning individuals to countries of 
jurisdiction. Carlos the Jackal was taken and returned to 
France under a rendition. Others have been--there were 
prisoners that we captured abroad that were rendered back to 
this country for purposes of trial. I think those kinds of 
renditions are an appropriate tool. I do not believe that we 
ought to use----
    Chairman Feinstein. Could you hold--the microphone has just 
gone off.
    Mr. Panetta. I've got it. I do not believe that--and as I 
said, under the Executive Order, I do not believe we ought to 
use renditions for the purpose of sending people to black sites 
and not providing the kind of oversight that, I believe, is 
necessary.
    Now, having said that, if we capture a high-value prisoner, 
I believe we have the right to hold that individual 
temporarily, to be able to debrief that individual and then to 
make sure that individual is properly incarcerated so that we 
can maintain control over that individual. And I think that--
frankly, I think that's provided for under the Executive Order.
    Vice Chairman Bond. To clarify further, are you saying that 
the government has sent people to other countries for torture? 
And what do you mean by that?
    Mr. Panetta. I have not been officially briefed on any of 
the extraordinary renditions as to what actually took place. My 
understanding is that there were black sites; my understanding 
is that we used those during that time. Some of these were 
permanent facilities. What took place with those individuals, I 
don't have any direct evidence of, but obviously, there were 
indications that those countries did not meet the kind of human 
values that we would extend to prisoners. So it's for those 
reasons that the President acted to prevent extraordinary 
renditions.
    Vice Chairman Bond. Now, since you don't know about those, 
I would assume that would apply to the renditions in the 1990s, 
when detainees were transferred to a third country where they 
were executed. Does that qualify as torture?
    Mr. Panetta. Well, I think in the renditions where we 
return an individual to the jurisdiction of another country and 
then they exercise, you know, their right to try that 
individual and to prosecute him under their laws, I think that 
is an appropriate use of rendition.
    Vice Chairman Bond. Now, you're talking about not holding 
them in black sites. When you capture a high-value target, say 
number two, three, four, five in al-Qa'ida, where would you put 
that target? Where would that person be held?
    Mr. Panetta. Well, again, without going into the exact 
location of these sites, I think it's fair to say that if we 
captured Usama bin Ladin that we would find a place to hold him 
temporarily.
    Vice Chairman Bond. Where do you hold him permanently? I 
don't think you'd want to let him loose, do you?
    Mr. Panetta. We certainly don't want to let him loose. We 
would debrief him and then we would incarcerate him, probably 
in a military prison.
    Vice Chairman Bond. In the United States? I mean, if we're 
closing down Guantanamo, where would you send these most 
dangerous terrorists?
    Mr. Panetta. Senator, I'm not going to speculate on that, 
and to some extent, even under the Executive Order, there has 
to be a determination what happens to hard core individuals who 
cannot be tried or transferred. But in that instance, this 
would not come under the definition of a black site, because, 
number one, individuals who are held would be able to have 
access to the Red Cross. Number two, they are individuals who 
would be held on a temporary basis. And number three, the Army 
Field Manual would apply.
    Vice Chairman Bond. Well, that leaves more questions I'll 
catch in another round. Thank you, Madam Chair.
    Chairman Feinstein. Thank you. I would call everybody's 
attention to the five-minute clock, which is going to be 
enforced. Senator Levin.
    Senator Levin. Thank you very much, Madam Chairman.
    Let me welcome you, Mr. Panetta. I know of nobody better 
prepared by experience, by character, the integrity that you 
have, by your demeanor to take on this responsibility, and we 
congratulate you and hope that you'll be speedily confirmed.
    We continue to hear complaints that the Central 
Intelligence Agency and the Department of Defense do not 
adequately share intelligence. In other words, they keep 
intelligence which they've collected from each other. Do you 
believe that there should be maximum sharing of intelligence 
between the Department of Defense and the CIA?
    Mr. Panetta. Absolutely, and I've met with the Secretary of 
Defense and talked to him about making sure that we coordinate 
our efforts so that we know what's going on, what they're 
doing, and they will know what we're doing so that we can share 
that information.
    Senator Levin. President Obama has said that waterboarding 
is torture. The Attorney General has said the same thing 
publicly, that waterboarding constitutes torture. Do you agree?
    Mr. Panetta. I've expressed the opinion that I believe that 
waterboarding is torture and that it's wrong, but more 
importantly the President has expressed the same opinion.
    Having said, that I also believe, as the President has 
indicated, that those individuals who operated pursuant to a 
legal opinion that indicated that was proper and legal ought 
not to be prosecuted or investigated, and that they acted 
pursuant to the law as it was presented to them by the Attorney 
General.
    Senator Levin. You were quoted as saying in a column in the 
Monterey Herald that ``torture is illegal, immoral, dangerous 
and counterproductive.'' Do you think it can be made legal by a 
legal opinion?
    Mr. Panetta. You know, my view as an attorney was that was 
a stretch by the Attorney General during the last 
administration making that decision. But when you're an 
employee at the CIA, you have to operate based on the legal 
opinions that are provided you from the Justice Department, 
from the Attorney General. You know, there have to be some 
guidelines here, there have to be some standards, and whether 
you agree or disagree--and I certainly do not agree with that 
particular opinion--nevertheless, when you go out there and 
take the kind of actions that have to be taken and rely on 
those opinions, I do not think that you ought to be prosecuted 
for that.
    Senator Levin. The President, I believe, said--the Attorney 
General has said that nobody's above the law and that he will 
follow the law wherever it takes him. If that takes the 
Attorney General, with the approval of the President, into an 
inquiry as to the CIA's past practices, including the use of 
waterboarding and other harsh techniques, would you oppose that 
inquiry?
    Mr. Panetta. My approach hopefully would be that this 
committee would take steps--if you want--if the purpose is to 
learn lessons from what happened in the past, I think this is 
the appropriate committee to look at that history and to be 
able to determine what was done right and what was done wrong.
    I also happen to believe, with the President, that if we 
find that there were those who deliberately violated the law--
deliberately violated the law and deliberately took actions 
which were above and beyond standards that were presented to 
them, then obviously in those limited cases there should be 
prosecutions.
    Senator Levin. In order to help this committee and the 
public to understand exactly what happened and why and what the 
validity of the legal opinion was that was pretty quickly 
rescinded after it was brought to public light, would you 
support the release of the so-called second Bybee memo, which 
was an Office of Legal Counsel memo addressed to the CIA that 
has not been released, unlike the legal memo which was sent to 
the Department of Defense, which has been publicly released. 
Would you support that release?
    Mr. Panetta. I would certainly do everything possible to 
cooperate with this committee in reviewing that history and try 
to cooperate with you in getting the information that you need 
in order to determine what actually happened.
    Senator Levin. It's not just to the committee, but it's 
also to the public. The DOD memo, so-called the first Bybee 
memo, has been made public. Would you support making the Bybee 
legal memo from the Office of Legal Counsel public that went to 
the CIA?
    Mr. Panetta. Senator, I'd like the opportunity to review 
that document and to understand what's in it, but obviously I 
would do whatever I can to release those elements that I 
believe can be declassified and presented.
    Senator Levin. And finally, could you give us your 
understanding of the relationship between the CIA and the DNI? 
Are you under the supervision, for instance, or is it a more 
cooperative, collaborative relationship?
    Mr. Panetta. Well, I think that the intention of the 
Congress in establishing the DNI was to create an operation 
that would coordinate all intelligence activities within the 
federal government, would report to the President, and would 
establish strategic goals for the intelligence community. I 
view my responsibility as an operational partner in that 
structure, reporting to the DNI, performing the tasks that are 
assigned to me by the DNI and providing him with the 
information and support that are needed. I'm an operational 
agent of the federal government as head of the CIA, if I'm 
confirmed as head of the CIA.
    It is a tremendous operational arm. It is very important to 
producing the intelligence necessary for this country. It is 
deeply involved, obviously, in covert action and in analysis. 
So we are an operational arm, just like the NSA, just like the 
NRO. And I believe the role of the DNI is to coordinate all of 
our activities so we're exchanging information, we understand 
what the strategic goals of this country are, and we are 
working together as an intelligence team, not stovepiping each 
of our operations.
    Senator Levin. Thank you, Madam Chairman.
    Chairman Feinstein. Thank you very much, Senator Levin.
    Senator Wyden.
    Senator Wyden. Thank you very much, Madam Chairman.
    I too want to welcome the nominee. I think he's going to do 
a first-rate job. I'm struck by how much time you've spent on 
things like the President's daily briefing, so clearly you've 
been involved in the intelligence policy area.
    But I think what I especially like about your background, 
Mr. Panetta, is your track record of speaking truth to power. 
And I look, for example, at what you did in the Nixon 
administration when there was tough pressure on you to back off 
on enforcing school desegregation. You were a young guy, and 
you said you weren't going to sacrifice your principles. So I 
look forward to seeing you confirmed.
    I want to dig into the question of interrogation policy and 
ask you about one area very specifically. I think our country, 
as it looks at this debate, and particularly where we're headed 
in the future, wants to know how you would at the Agency deal 
with what we call the human ticking time bomb--the person who 
has critical threat information, urgent information and you 
need to be able to secure that information.
    I'm of the view that when you look at the FBI and the U.S. 
military, that they have been able to show that it is possible 
to get the information that's needed to protect our country's 
security, our country's wellbeing without coercive tactics. 
They've shown that, and I want to hear from you first whether 
you believe these noncoercive approaches can be effective in 
protecting our country when we're dealing with one of these 
human ticking time bombs.
    Mr. Panetta. What the President did in the Executive Order 
was to establish a single standard that would apply with 
interrogations with the Army Field Manual, and I think it was a 
step that was taken because I think he believes deeply that we 
don't have to choose between our ideals and our safety and that 
we can abide by the law in doing what has to be done to protect 
the safety of this country.
    And I believe that deeply. I think that's what this country 
is all about, that's what all of us who appreciate what the 
United States of America is all about. It's what my parents, as 
immigrants, believed that this country was all about, was the 
rule of law. And I think all of us have a responsibility to 
abide by that.
    In the particular situation that you mention, where you 
have someone who could be a ticking time bomb and it's 
absolutely necessary to find out what information that 
individual has, I think we have to do everything possible, 
everything possible within the law, to get that information. 
And that's what I would do if I'm confirmed as the Director of 
the CIA.
    I believe that if you talk to Bob Mueller, if you talk to 
John McCain, if you talk to General Petraeus, that they believe 
that information can be obtained without having to resort to 
extraordinary measures.
    Senator Wyden. I want to continue to work with you on that, 
because I think that Bob Mueller at the FBI and the U.S. 
military are showing that it's possible to protect our country 
when dealing with these human ticking time bombs, and as you 
have said in your comments here, do it in line with our values 
and using noncoercive techniques.
    My second point sort of elaborates on this. Obviously, 
there are some people who don't agree with that particular 
view. They say you have to use these coercive techniques or our 
country will be put in jeopardy by these kinds of individuals. 
And so the debate just goes back and forth. You've indicated, 
as I feel, that noncoercive techniques will be effective 
against these kinds of very dangerous individuals, and the 
argument is made by some that it's not.
    I think we ought to start declassifying some of the 
information in a way that protects sources and methods so as to 
better inform the public with respect to this issue. Would you 
be willing to work with me and colleagues--this committee--
Democrats and Republicans--to responsibly start declassifying 
some of the information about the CIA's interrogation program.
    Mr. Panetta. Yes.
    Senator Wyden. The last question I want to ask you on this 
point is your sense about what can be discussed about the 
interrogation program in public, because this goes to a 
sensitive kind of area. My view is, unless you were to simply 
kill people in the course of interrogations, which is something 
no one, obviously, is in favor of, almost all of these 
interrogation practices come to light eventually. How would you 
look at the question about what can be discussed publicly and 
what sensitive information has to be kept private?
    Mr. Panetta. Senator, what I think I've got to do first and 
foremost when I get into the Agency is find out myself just 
exactly what tactics were used, what information was gathered. 
At this point, you know, I understand that there are some who 
believe that valuable information was gathered using some of 
these other techniques. I don't know for a fact that that's the 
case. I don't know whether or not there was misinformation that 
was provided.
    I don't know whether in fact the damage that was done as a 
result of those kinds of activities certainly counterbalanced 
whatever information we received. Those are all questions that 
I have and my goal is to look into those situations, look into 
it as best I can, and then to share with this committee what I 
find out.
    Senator Wyden. My time is expired, Madam Chair. Thank you.
    Chairman Feinstein. Thank you very much, Senator Wyden.
    Senator Burr.
    Senator Burr. Thank you, Madam Chairman.
    Welcome, Mr. Panetta. And I know the Chair will 
expeditiously move forward with your nomination and we can have 
a CIA Director in place.
    Let me stay on the same topic, if I can, for a second that 
Senator Wyden was on. Mr. Panetta, do you believe that the 
President has the executive power to choose to use enhanced 
interrogation techniques if in fact he felt that was necessary?
    Mr. Panetta. My view is that--I understand the powers that 
the President has under Article II and they are broad powers, 
but nobody is above the law. Nobody is above the law, and I 
think that even the President of the United States has to abide 
by the statutes and by the laws passed by the Congress. So, 
yes, he has broad authority under Article II but I don't think 
he can violate the laws of this country.
    Senator Burr. You answered Senator Wyden's question, his 
initial question, by saying ``I would go to whatever lengths to 
get that information.'' Would you hesitate with asking the 
President to use this executive power in a situation as Senator 
Wyden presented to you?
    Mr. Panetta. If we had a ticking-bomb situation and 
obviously whatever was being used I felt was not sufficient, I 
would not hesitate to go to the President of the United States 
and request whatever additional authority I would need but, 
obviously, I would again state that I think this President 
would do nothing that would violate the laws that were in 
place.
    Senator Burr. You and I have had the opportunity to talk 
about the threat bioterrorism presents to us. How serious do 
you think bioterrorism is as a threat to this country and to 
the world and, more importantly, do you have anything you 
intend to do initially when you get to the CIA that would 
change the way we look at bioterrorism and specifically its 
threat?
    Mr. Panetta. Obviously, because of the enemy we confront as 
the result of 9/11, there are obviously a number of areas that 
threaten our security. It's not only acts of terrorism: it's 
the potential for using some kind of nuclear weapon, it's the 
potential to use cyber-attacks and it is the potential, 
obviously, to use bioterrorism. I'm a believer that when you 
look at the science and look at the potential on bioterrorism, 
that constitutes a very significant threat to the safety of the 
American people.
    And that's an area that I would hope to look at very 
closely as Director of the CIA to ensure that we know as much 
as possible about the potential threat out there and that we're 
taking steps to try to deal with it.
    Senator Burr. On January 22nd, President Obama issued a 
series of executive orders, specifically the ones that related 
to CIA interrogations and the detention program at Guantanamo. 
Let me ask you, were you involved in the thought process of 
those executive orders, if at all, and to what degree?
    Mr. Panetta. After the announcement that the President made 
that he would nominate me as Director of the CIA I did 
participate in some briefings on the Executive Order but I was 
not involved directly in the development of those executive 
orders.
    Senator Burr. Are you aware if anybody at the CIA--
officials, attorneys--were consulted about those orders ahead 
of time and if their input was considered or included in the 
resulting Executive Order?
    Mr. Panetta. I believe they did and I believe there was 
actually a meeting where they went out to Langley and sat down 
with individuals out there to discuss the executive orders and 
their implications.
    Senator Burr. If you determine that there are any legal or 
operational problems caused by the Executive Orders of January 
22, will you request that they be modified or rescinded to 
accommodate your concerns?
    Mr. Panetta. Senator, under each of those there is a review 
process that's built into the Executive Orders. Under the 
interrogation Executive Order there is a review process in 
which we are to look at these enhanced interrogation techniques 
and determine exactly what kind of information was derived, how 
they were used, et cetera, to determine whether or not any 
revisions ought to be made. I am a part of that review process 
and, you know, we will obviously make that determination.
    Under the Guantanamo process, my understanding is there's a 
review process to determine three categories--what prisoners 
can be tried, what prisoners can be transferred, what do you do 
with those prisoners who can neither be tried or transferred 
for some reason and what will happen with them. That's a 
process that I as Director of CIA--I'm not a part of that 
process, but I would assume that information that CIA has 
certainly would be a part of that process.
    Senator Burr. I thank you. Thank you, Madam Chairman.
    Chairman Feinstein. Thank you very much, Senator Burr.
    Senator Chambliss.
    Vice Chairman Bond. He's AWOL.
    Chairman Feinstein. Not here.
    Senator Feingold.
    Senator Feingold. I thank the chair. And, Madam Chairman, 
Congressman Panetta's integrity and independent managerial----
    Chairman Feinstein. Could you see that your mike is on, 
please?
    Senator Feingold. I have it on. His managerial skills and 
his broad experience in both the Executive and Legislative 
branches suggests----
    Chairman Feinstein. Perhaps If you'd move it closer?
    Senator Feingold. Let's try this. I thank the Chair.
    Chairman Feinstein. You're welcome.
    Senator Feingold. Can you hear now?
    Senator Mikulski. Is this microphone working? You've got to 
act kind of like a rock star. [Laughter.]
    Senator Feingold. Congressman Panetta's integrity and 
independence, his managerial skills and his broad experience--
--
    Chairman Feinstein. I'm sorry, still can't hear you. Try 
the one on your right. Try the one on your right.
    Vice Chairman Bond. Let him start over, give him full time.
    Chairman Feinstein. Yes, you'll get your full five minutes.
    Senator Feingold. That's very kind. [Laughter.]
    Senator Hatch. Somebody in foreign intelligence is 
interfering here, I guess.
    Senator Feingold. I believe Congressman Panetta can and 
will refocus the brave and dedicated professionals of the 
Agency and what they do best and what we need them for the 
most. And with his experience and skills working across 
agencies I think he's perfectly situated not only to represent 
the interests of the CIA within our government but also to 
convey an important message to the rest of the world. And 
that's when you're talking to the Director of the CIA, he's 
speaking for the President and the whole of the administration.
    And let me just praise you, Congressman Panetta, for the 
directness and clarity of your responses, in particular to the 
questions just raised by Senator Burr. I'd ask the Chair that 
my full statement be placed in the record.
    Chairman Feinstein. It will, Senator.
    [The prepared statement of Senator Feingold follows:]
              Prepared Statement of Senator Russ Feingold
    Congressman Panetta has indicated that he appreciates the need to 
work with Congress. In his opening statement today, he indicates that 
the ``Gang of 8'' process was abused by the Bush Administration and 
stresses that notification to the Committee is a legal obligation. I 
have every reason to believe that he will usher in a new, collaborative 
relationship with the Congress that respects our constitutional 
obligation to conduct vigorous, independent oversight.
    His commitment to implementing the changes already made by 
President Obama in the areas of detention and interrogation are 
evidenced by his statements--long before the election--condemning 
torture as well as warrantless surveillance of Americans. In the coming 
years, however, the CIA will face many challenges that will raise moral 
and legal, as well as national security, questions. These matters will 
require perspective and a clear-headed understanding of our national 
interests. They will also require close consultation with the Congress 
and a respect for the policymaking role of the State Department and the 
legal counsel of the Department of Justice. The policies already set 
forth by President Obama are thus only the beginning of a new era, one 
in which we will need a new kind of leadership.
    In my meeting with Congressman Panetta, I raised a number of 
issues, some of which I will address in today's hearing. They include 
human rights, legal reviews of existing programs and ongoing 
authorities, and the need to integrate the CIA's clandestine collection 
with the information obtained openly by the State Department and others 
in our government. There are also many matters that can only be 
addressed in classified settings which I look forward to discussing 
with the nominee, should he be confirmed.
    The fact that the CIA's activities are classified should never 
obscure the fact that it serves the American people and must adhere to 
our laws and national values, just like any other department or agency 
of our government. I have confidence that Congressman Panetta 
understands this principle, as well as the notion that members of 
Congress, with full knowledge of the CIA's activities, are an essential 
part of the checks and balances required of our constitutional system. 
As he has indicated in his statement to the committee, the ``CIA 
confides in you--and counts on you--to provide the oversight that the 
public cannot.''

    Senator Feingold. Congressman, you indicated in your 
opening statement that the legal authorities governing the CIA 
have shifted and acknowledge that there have been controversies 
over the laws and policies governing rendition and detention 
and interrogation. And Director Blair committed to the 
committee that he would submit to the Office of Legal Counsel 
of the Department of Justice proposed or ongoing activities 
where there is a legal dispute.
    Will you ensure that the CIA fully cooperates with the DOJ 
as it reviews these matters, as well as any others that may 
arise?
    Mr. Panetta. Yes, I will.
    Senator Feingold. And in your response to the committee's 
written questions you indicated you are concerned that we've 
not devoted sufficient resources in this area to Africa. You 
also stated that you'd review CIA operations and resources in 
light of emerging or long-range threats and may adjust the 
allocation of resources accordingly. That's not easy, frankly, 
given the chronic tendency of the intelligence community to be 
reactive to current crises at the expense of potential or real 
emerging and long-range threats.
    If confirmed, will you work with me and other members of 
the committee right at the outset on setting those new 
priorities and budget allocations, in particular with regard to 
Africa?
    Mr. Panetta. Yes, I will. Senator, I really do think that 
if we are going to come into the 21st century we have got to 
set a list of priorities that not only look at current crises--
and clearly we've got Afghanistan, we've got Pakistan, we've 
got Iraq, and we have North Korea. We understand what those 
more immediate crises are that we have to focus on--Iran, et 
cetera.
    But we also have to clearly look at Russia and China. We've 
got to look at Africa. We've got to look at Latin America. We 
have got to look at where those potential crises can develop 
for the future. And that's an area that I would like to focus 
on and clearly would work with the committee in those areas.
    Senator Feingold. Another aspect of allocating resources: 
As you allocate the CIA's finite resources, if confirmed, I'd 
like you to consider how much easier that job would be if there 
were some strategic direction about where we most need 
clandestine collection and, on the other hand, where our 
government can do a better job gathering information through 
diplomatic reporting or other non-clandestine means.
    It's clear that a lack of any such strategy, in my view, 
has prevented us from using our nation's resources wisely or 
effectively. It's effectively kept us in the dark on a broad 
range of national security issues. And that's why I think this 
committee approved legislation by Senator Hagel and myself that 
would have created an independent commission to recommend ways 
to fix this longstanding systemic problem and why a broad range 
of former officials, including the former national security 
advisors from both parties, have endorsed this legislation.
    Do you agree that an interagency strategy that integrates 
clandestine and non-clandestine collection would serve our 
national interests and would you support an independent review 
aimed at providing recommendations on how to achieve that goal?
    Mr. Panetta. I would look forward to working with you on 
that legislation. I think those goals are good ones to look at.
    Senator Feingold. In your opening statement, you stress 
that the CIA takes the lead with our liaison partners. As I 
indicated in my statement, I see your nomination as a critical 
opportunity to convey to those partners that there will be no 
more mixed messages from our government.
    What kind of working relationship will you establish with 
the Department of State and others in our government to ensure 
that your message is consistent with all elements of our 
foreign and national security policies, including 
counterterrorism and democratization, counterproliferation and 
human rights?
    Mr. Panetta. Senator, I think this country is at its 
weakest when we send mixed messages abroad as to what our 
policy is. I think we have to speak with one voice; we have to 
implement one policy. The President sets that policy and we 
have to follow it. And I will do everything possible to work 
not only with our liaisons, but with the State Department, the 
Department of Defense and the other key agencies to make sure 
that we are all saying the same thing. And, frankly, I think 
that's part of the role of the DNI, is to make sure that we are 
all saying the same thing.
    Senator Feingold. Thank you very much. Thanks to the Chair.
    Chairman Feinstein. Thank you very much, Senator Feingold.
    Senator Rockefeller.
    Senator Rockefeller. Thank you, Madam Chair.
    Mr. Panetta, I am delighted by your appointment. And I 
think one of the qualities that you bring is this enormous 
array of experiences you've had, including a great deal of 
intelligence, an enormous array of knowledge of government. And 
you bring it to the head of the CIA, where we have had people 
who are of the CIA but who have never been able to translate to 
the rest of the world or to the rest of this government or to 
the rest of this Congress in the broad terms, practical terms, 
professional terms that you will be able to do.
    You will be able to give the CIA new standing, together 
with Steve Kappes at an operational level, you both, that I 
don't think any other CIA Director has ever had. And so I 
strongly support your nomination. I have only one line of 
questions to ask you because they have to be asked.
    A certain former senior official suggested that the Obama 
Administration is more concerned about reading the rights to 
al-Qa'ida's terrorists than they are with protecting the United 
States. He suggested that the Obama Administration thinks it 
can defeat terrorist enemies by ``turning the other cheek,'' 
and that , ``if we just talk nice to those folks, everything is 
going to be okay.''
    That needs to be clarified because it's so extraordinary 
that such a statement would be made at such an early point in a 
new administration. So, to clear the air, do you think language 
like this is helpful in developing effective intelligence 
policies that can have broad bipartisan support? Can you 
envision a debate on these difficult issues in which the people 
have strong opinions about how to keep America safe but do not 
denigrate the motives or integrity of people who have different 
opinions?
    Mr. Panetta. Senator, I was disappointed by those comments 
because the implication is that somehow this country is more 
vulnerable to attack because the President of the United States 
wants to abide by the law and the Constitution. I think we're a 
stronger nation when we abide by the law and the Constitution.
    Senator Rockefeller. Agreed. I'm curious about who that 
particular former official was talking about. Of all of the 
people you know in the Obama Administration--and you have over 
the years, but particularly in this last transition period--do 
you know anyone who cares more about reading the rights to a 
terrorist than protecting America, on the one hand; anyone who 
thinks we should turn the other cheek against terrorists, on 
another hand; and anyone who thinks that everything will be 
okay if we just go talk nice to terrorists?
    Mr. Panetta. No. Senator, there are thousands of men and 
women who are on the front lines trying to protect this country 
and fighting the battle to ensure that our security is 
protected. They're using every tool that our nation can provide 
them. And I think that all of us, all of us within this 
administration, Republican and Democrat alike, have a 
responsibility to make sure that we are all fighting this 
battle together and not blaming one or the other for particular 
weaknesses. If we don't act together to try to protect this 
country, then that is the surest way to lose our security for 
the future.
    Senator Rockefeller. Have you ever met anyone who thinks, 
in this Administration and in the transition period, that 
dealing with detention and interrogation policies, including 
closing Guantanamo, is actually an easy issue, number one, 
anyone who does not know that these issues are complicated and 
fraught with difficult and even dangerous questions?
    Mr. Panetta. Now, look, these are tough issues. Nobody has 
any easy answers here, but I think the fact is that I am 
absolutely convinced that we can protect this country, we can 
get the information we need, we can provide for the security of 
the American people and we can abide by the law. I'm absolutely 
convinced that we can do that.
    Senator Rockefeller. Can you remember any discussions, 
finally, in which you felt that the safety and security of the 
American people was not the absolute, number one priority of 
everyone with whom you worked and have worked?
    Mr. Panetta. Everyone agrees that that's the number-one 
priority.
    Senator Rockefeller. Thank you, sir.
    Chairman Feinstein. Thank you very much, Senator 
Rockefeller.
    Senator Coburn and then Senator Whitehouse.
    Senator Coburn. Thank you, Madam Chairman.
    Mr. Panetta, thank you, thank you for your service. I 
enjoyed our conversation in my office this past week. I have a 
couple of questions for you, one of them is hypothetical. But 
before I get to those, I wasn't clear in your answer to Senator 
Levin. Is the DNI your boss or not?
    Mr. Panetta. The DNI is my boss. He's the person I respond 
to.
    Senator Coburn. Okay. Thank you. If an employee of the CIA 
under your watch grossly mishandled highly classified 
information in a way that that information was divulged to an 
adversarial foreign government, would that be grounds for 
termination at the CIA under your watch?
    Mr. Panetta. Absolutely.
    Senator Coburn. Is that information that should be fully 
and immediately briefed to the full membership of the oversight 
committee?
    Mr. Panetta. Yes, it should be.
    Senator Coburn. Here's the hypothetical: If a staff member 
of the House or Senate intelligence committees similarly 
mishandled highly classified information and that information 
ended up in the hands of an adversarial foreign government, 
what actions would you take, in light of the fact that the CIA 
adjudicates itself the staff clearances?
    Mr. Panetta. Well, I would certainly bring it to the 
attention of this committee, to the Chairman, to the Vice 
Chairman and to membership of this committee. That's a serious, 
serious breach, and obviously I think the disciplining of that 
individual I would leave to this committee, but I could 
certainly make a recommendation.
    Senator Coburn. Can you imagine what that recommendation 
might be?
    Mr. Panetta. I think you----
    Senator Coburn. I'd like to hear it.
    Mr. Panetta. If we were sure that kind of breach had taken 
place, then obviously I'd recommend pulling the clearance.
    Senator Coburn. Thank you. Third question: Are you aware 
that former DCI John Deutch, who in 2001 had his security 
clearances revoked and received a pardon for mishandling highly 
classified information, do you realize that he has recently 
been asked by DNI Director Blair to serve in a fairly sensitive 
position on an advisory panel overseeing our most sensitive 
intelligence overhead architecture?
    Mr. Panetta. I'm not aware of that.
    Senator Coburn. Do you think that's appropriate?
    Mr. Panetta. I think I'd have to sit down and talk with 
Admiral Blair about just exactly what he had in mind.
    Senator Coburn. What kind of message do you think that 
appointment sends to the men and women of the CIA, who work 
every day to collect and protect the most sensitive 
intelligence?
    Mr. Panetta. Again, Senator, because, this is the first 
time I've heard that, I don't want to jump to any quick 
conclusions about what the Admiral may or may not have had in 
mind, but clearly this is something I need to talk to him 
about.
    Senator Coburn. All right, thank you. In your pre-hearing 
questions, you said that one of your first management 
priorities would be to review the CIA's overreliance on 
contractors--and I know that's been asked before. Are you at 
the position now where you can judge how effectively and how 
fast you could do that, because my understanding is much of 
that's based on a lack of adequate, available people, as well 
as those transferring out and coming back in?
    Mr. Panetta. I think that's right. And so it's going to be 
a transition. It's not something that can happen overnight, 
where you suddenly get rid of all your contractors and hope 
your people can fill that job. I think it ought to be done on a 
transition basis. We ought to determine what are those areas we 
can move into the employees of the CIA and the skills set that 
they can pick up, but I do think, over a period of time we 
ought to be reducing our dependence on contractors and building 
an in-house responsibility in each of these areas.
    Senator Coburn. Does that apply even when you could do it 
outside for a much lower cost?
    Mr. Panetta. Well, I guess I'd be interested in that, you 
know. As Director of OMB, I always had to look pretty closely 
at people who said you can get cheaper services by contracting 
it out, because when we went back and looked at some of those 
contracts, we found that the costs, often times, increased.
    So my answer would be, I'd like to look at where we do have 
to use contractors--and as I said, I'm not saying we shouldn't 
use any contractors at all. There may very well be a need for 
that. We may need a certain capability, we may need a certain 
language skill so that we may need to do that. But in doing it, 
I would make very sure that the taxpayers are protected.
    Senator Coburn. Thank you, and I think you would, too. 
Thank you, Madam Chairman.
    Chairman Feinstein. Thank you very much, Senator Coburn.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Madam Chair. Mr. Panetta, 
congratulations and welcome.
    Mr. Panetta. Thank you.
    Senator Whitehouse. During the course of the Bush 
Administration, the Department of Justice, through its Office 
of Legal Counsel, provided an opinion, which in relevant part I 
had de-classified, which indicated that the President was not 
under any obligation to follow Executive Orders. He could 
depart from Executive Orders without ever disclosing it or 
modifying the Executive Order. In effect, the Executive Orders 
were something from which the President and the people 
operating under his direction were entirely immune.
    Obviously, that's not my understanding of what rule of law 
means, nor of what Executive Orders amount to. What I would 
like you to tell us, given the importance of these new four 
executive orders that President Obama has indicated, and 
standing Executive Orders such as 12333, which tends to provide 
most of the oversight over some of these areas, in the event 
that the CIA is tasked to depart from any valid, pending 
Executive Order, will you inform the committee of that?
    Mr. Panetta. Yes, I would. I think that's a serious matter 
and this committee ought to be informed of that if I'm being 
asked to do that.
    Senator Whitehouse. Thank you. Following up on Senator 
Rockefeller's topic with respect to a recent administration 
official, very early on, when Guantanamo was first opened up, 
the Vice President described the occupants of that facility as 
the worst of a very bad lot, they are very dangerous, they are 
devoted to killing millions of Americans, innocent Americans if 
they can, and they're perfectly prepared to die in the effort. 
The number ran up close to 800 that were contained in that 
facility. About more than two-thirds of those detained have 
already been released by the previous administration.
    More recently, in June of 2005, Vice President Cheney said 
this: ``We had some 800 people down there. We've screened them 
all and we've let go those that we've deemed not to be a 
continuing threat. But the 520-some that are there now are 
serious, deadly threats to the United States. For the most 
part, if you let them out, they'll go back to trying to kill 
Americans. The 520-some that are there now are serious, deadly 
threats. We've screened them all.'' They then released 270 of 
those 520.
    The reason I point this out is because in the past 
administration, the great and necessary privilege of secrecy 
that has been conferred upon our intelligence community for 
very, very good and legitimate reasons, I believe, has been 
abused. And it has been abused to prevent this committee and 
the public from having access not to sources and methods whose 
release would compromise national security, but to the other 
side of an argument that, for political purposes, the 
administration wanted to position in a particular way--not 
having access to what was going on at Guantanamo, not having a 
fair and real understanding of what happened with interrogation 
policies, not having a fair understanding of what was going on 
with the warrantless wiretapping program.
    Over and over again, secrecy was used for rhetorical 
propaganda purposes, not for national security purposes, in my 
view. I would like to urge you, in the course of your tenure--I 
don't think you will behave that way, but once these things 
have been done, people can go back and do them again. I'd like 
to be able to work with the committee and with you to think of 
ways in which we can create different incentives so that 
problem doesn't occur. At the moment, the Executive branch has 
all the declassifiers and you, as the Director of central 
intelligence can sit there and you can say something and it 
could be the biggest secret we have, and you haven't revealed 
it in any prosecutable way; what you've done is declassified 
it.
    If Chairman Feinstein were to answer you with something 
that was, perhaps, considerably less harmful to national 
security, but at least corrected what you had just said 
publicly, she would be at risk for, you know, the 
administration sending FBI agents to her office. There's an 
imbalance there that somehow I think needs to be corrected if 
we're going to stop this behavior from happening again in the 
future, because the precious trust of secrecy is too important 
to be abused that way. What are your thoughts about that?
    Mr. Panetta. I had a tremendous regard for Senator 
Moynihan, who said a great deal about this issue in terms of 
the over-classification that goes on. Look, there's a balance 
here. Clearly, there are areas that have to be classified, 
particularly when it involves the lives of people and involves 
important sources and methods that are being used. But, at the 
same time, the public and this committee has a right to know 
what's taking place. And there are areas where we have to 
declassify in order to ensure that the public is made aware of 
what takes place. It's a fine balance. I'd like to work with 
this committee to try to achieve that balance.
    Senator Whitehouse. I look forward to it and I thank the 
Chair.
    Chairman Feinstein. Thank you very much, Senator 
Whitehouse. Senator Nelson is next. I do not see him.
    Senator Mikulski.
    Senator Mikulski. Thank you very much, Madam Chairwoman.
    Mr. Panetta, welcome to the committee, and I'd like to say 
to the committee, perhaps out of any Member here, I've known 
Mr. Panetta the longest and, in some ways, the most up-close 
and personal. For the record, I'd like it to show that Mr. 
Panetta and I came to the Congress together in 1977. We were 
the bicentennial class; we came in at the 200th anniversary of 
our country. People came in with us like Gore, Gephardt--when 
we got past the Gs, we made something of ourselves. [Laughter.]
    But we also had names like Shelby and Stockman. I served in 
the House with Mr. Panetta and watched his excellent work on 
the Budget Committee and then see him go to OMB and then chief 
of staff to the President, and most recently, have been working 
with him in his work on the Pew Commission to really deal with 
the challenges that our oceans are facing, in terms of the 
environment. I can say to my committee colleagues that in all 
of those years, I've known Mr. Panetta to be a man of 
incredible honor, integrity and, really, an incredible 
diligence and work ethic.
    And if ever there's anyone who's served in government 
that's duty-driven, it's Leon Panetta. And if you know him the 
way I do, he's put his values into action. Family, faith and 
country--that's the way he was raised; that's the way he lives; 
and that's the way he functions. He has represented the most 
beautiful place in America--outside of Maryland and the 
Chesapeake Bay--in Monterey, and I think we're lucky to have 
him.
    Having said that, Mr. Panetta, I do have--my questions are, 
though, about restoring the honor and integrity of the CIA in 
the public--and functionality--in the public's mind. I'd like 
to give not a hypothetical, but a real case example about what 
happened to Colin Powell and his involvement at the CIA. Mr. 
Powell--as we know, Mr. Secretary Powell, General Powell, 
citizen extraordinary Powell--went before the United Nations 
and presented our case for the Iraq war.
    The information he presented was deeply flawed. Therefore, 
we, through the CIA and his briefings, discredited one of the 
most esteemed men in the world. That occurred because of either 
the CIA was grossly incompetent in their preparation of General 
Powell or it was cynical manipulation coming from orders of 
other areas of our government.
    Could you tell us what you will do at the CIA so that we 
would never again have another event like what happened to 
General Powell as he presented to the world the United States 
of America's case for taking a military action?
    Mr. Panetta. Senator, I promised the President of the 
United States that if I was fortunate enough to be honored with 
this position that what I would present him is the very best 
intelligence that I could bring together and that I would tell 
it straight to him, whether he likes to hear it or not. And I 
feel that's my obligation. I will present the best evidence 
that we have, the best intelligence that we have and I will 
present it to the policymakers and I will ensure that they have 
that very best information.
    And if by chance someone goes out and strays from that 
position and indicates something that's contrary to what I 
presented, then I would not only bring it to the attention of 
that individual, I'd bring it to the attention of the President 
of the United States.
    Senator Mikulski. That's an excellent answer. Let me ask, 
though, within the CIA there were those that dissented. I'm not 
sure always that the highest levels of the CIA knew the dissent 
among people working at the CIA. If confirmed, how would you 
treat dissent at the CIA and, as we talk about truth to power, 
would you actually establish some type of channel for 
dissenting opinions to be brought to your attention or to the 
leadership of you and Mr. Kappes?
    Mr. Panetta. My experience in government, Senator, is that 
the worst thing you can have is a group of yes-people around 
you: you got to have people that are dissenters; you got to 
have people that are willing to ask questions. They have to 
feel free to question what's going on. I think people have to 
have that opportunity because in the end, you know, the truth 
is something that sometimes depends on a certain perspective, 
but it's when you get a series of those perspectives that you 
can have a better sense of what reality is all about.
    So I would encourage dissent; I always have. When I was 
chief of staff to the President I was often the only person in 
the room who dissented, but I felt that was a role that I had 
to fulfill.
    Senator Mikulski. Well, I think we've been very clear that 
you will speak truth to power in terms of the President and to 
the DNI, for whom you work, but I would really hope, in 
conclusion, that you would consider a way that the worker bees 
at the CIA have a chance of communicating with you and look 
forward to further conversation.
    Mr. Panetta. I will. Thank you.
    Chairman Feinstein. If I can just announce my intent, it's 
my understanding that there are going to be 13 votes beginning 
in about 10 minutes. The remaining Senators are Senators Snowe, 
Bayh, Risch and Hatch. I'd like to conclude a first round. If a 
second round is required, it will be my intention to recess the 
committee and, if it's agreeable with you, Mr. Panetta, and my 
colleagues, carry out the second round tomorrow morning at 
10:00 a.m.
    Mr. Panetta. That's fine.
    Chairman Feinstein. So I'd like to conclude the hearing 
part this week. So we will continue and go hopefully until 
everybody has at least a first chance. Senator Snowe.
    Senator Snowe. Thank you, Madam Chair.
    I want to welcome you and congratulate you. I know we go a 
long way's back--I won't say how long, either, but a little bit 
shorter than Barbara--but I certainly want to commend you. And 
you're obviously assuming the helm of this agency at a very 
critical time in its history as well as in our nation's 
history, without question, and you're certainly equal to the 
challenge.
    As you mentioned that you're going to rely on professionals 
in the Agency, you're going to surround yourself with those 
professionals, at the same time ultimately you're going to make 
the decisions. As you know, the Agency has gone through, you 
know, considerable turmoil and particularly since 9/11, 
starting with that event, and then of course the failure to 
predict the weapons of mass destruction, the failure to have 
the accurate intelligence, the warrantless surveillance, the 
interrogation, detention, renditions--I mean, all of those 
issues combined that has created very troubling circumstances 
both for the Agency and for this country.
    How will you make those independent decisions? If you're to 
change the status quo within the Agency but yet you have to 
rely on the professionals, exactly how will you be changing the 
direction of the Agency, because many of these individuals 
obviously were part of the policymaking decisions at the time 
within the Agency. So how will that represent change?
    Mr. Panetta. Senator, my approach to every major job I've 
had to deal with is to go in and rely on the people that are 
there first and foremost. I did that when I took over at the 
Office for Civil Rights, I did that when I took over the Office 
of Management and Budget ,and I did that when I became chief of 
staff to the President.
    My approach is that I will rely on the people that are 
there. I'll rely on their experience. I'll see how they do the 
job, if they do it effectively, if they participate in the 
staff meetings. If I feel that I can get a sense of their 
dedication to the job and that they will recommend those 
policies that I think are best for the Agency and for the 
country, then we will work as a team.
    If I feel that there are people there that won't perform in 
that manner, then obviously I'll take steps, but my hope is 
that we can develop that kind of professional relationship. The 
people I have met, I am very impressed with their 
professionalism, I'm very impressed with their experience and 
their abilities, and I think we have to learn to work together 
as a team. But we also have to understand that if changes have 
to be made, they ought to be made for the benefit of not only 
the Agency but, more importantly, for the country.
    Senator Snowe. What do you consider to be the greatest 
challenge?
    Mr. Panetta. I think greatest challenge at the CIA is the 
need to develop the very best intelligence in areas that we are 
not anticipating right now may be problems for the future. And 
I think we've got a very good effort in Afghanistan. I think 
we've got a good effort in Pakistan. I think we've got a good 
effort in Iraq. I think we've got a good effort in Iran and 
North Korea. But what I worry about are those areas that 
concern me for the future. We aren't as strong as we should be, 
I believe, in Russia, in China, in Africa.
    I think we need to know more, for example, with regards to 
the current economic crisis that's not only impacting this 
country but impacting the world. What are the consequences of 
that in terms of stability in the world? We need to understand 
that. We have to be prepared to ensure that we are not 
surprised, and I think the biggest challenge I have right now 
is to figure out where those gaps are and how do we best deal 
with them.
    Senator Snowe. Do you believe that al-Qa'ida remains the 
number one priority and the top demonstrated threat?
    Mr. Panetta. I do because clearly they are the terrorist 
who attacked us on 9/11 and we have to do everything possible 
to strike against them.
    Senator Snowe. Well, what do you think it says that we have 
been unable to capture Usama bin Ladin since 9/11? What do you 
think that says about our resources or our ability or our 
focus?
    Mr. Panetta. That's the same question I ask every day, 
because I think one of the responsibilities we have is to go 
after our worst enemy, and that is Usama bin Ladin. I've asked 
the question, you know, why have we not been able to do it? 
There obviously have been a lot of efforts to try to locate 
him. Oftentimes the trail goes cold, but there is a continuing 
effort to try to ensure that we do everything possible to try 
to find him. It would be one of my priorities, frankly, to make 
sure that we in fact do find him and bring him to justice.
    Senator Snowe. Thank you.
    Chairman Feinstein. Thank you very much, Senator Snowe.
    Senator Bayh.
    Senator Bayh. Thank you, Madam Chairman.
    Thank you, Mr. Panetta. I've been very impressed by your 
testimony here today, as I was by our meeting some time ago. It 
is my hope that you will be an exemplary Director of Central 
Intelligence. That's a vitally important position, as you know, 
often thankless as I'm sure if you don't know you will find 
out. But I am personally grateful to you for your willingness 
to take on this important responsibility at this challenging 
time.
    Some of my questions may be in the vein of playing the 
devil's advocate, but as we wrestle with these I think it's 
important to sometimes examine them from not only the point of 
view that we've adopted but perhaps from an alternative point 
of view as well to ensure that we've reached the right 
decision.
    With regard to the detainees at Guantanamo, as you know and 
I think as Senator Whitehouse pointed out, the previous 
administration released quite a few detainees for repatriation.
    It has been published that a significant percentage of them 
have returned to terrorist activities.
    In fact, published reports indicate that at least one 
carried out a deadly attack or participated in a deadly attack 
on the U.S. Embassy in Yemen, killing several Yemenis and one 
U.S. citizen. It is my understanding that this administration 
will continue the practice of the previous administration of 
repatriating at least some of these detainees. They go through 
the process in Saudi Arabia that is considered to be good. But 
some of them, it's not successful.
    So my question to you is, if some of these individuals that 
we release from our custody go back to participating in these 
activities and innocent people are killed as a result of that, 
what do we say to the families of those victims? How do we 
justify that decision?
    Mr. Panetta. I hope we never have to do that. And I think 
the best way to try to prevent that from happening is to make 
the best determination about what prisoners can in fact be 
repatriated and whether or not they are subject to being able 
to return to civilian life in some way.
    I think we have to do a very challenging job of gathering 
the evidence, gathering the information on each of these 
prisoners, and then making the determination which ones can be 
tried, which ones can be transferred, but which ones ought 
never to leave incarceration. There probably has to develop 
some kind of process that allows for some kind of reporting to 
the federal courts so that there is an ongoing system of 
reporting why they are being incarcerated and why they are 
being held so that they just aren't, you know, put away without 
any resort to our justice system. But I think there are going 
to be a group of prisoners that, very frankly, are going to 
have to be held in detainment for a long time.
    Senator Bayh. I think your answer was right to the heart of 
the matter. And I would just encourage you, we need to be 
realistic about the success of some of the countries to whom we 
repatriate individuals, look at their track record, and make 
our evaluations accordingly. And as you say, in evaluating 
which category these individuals fall into, I personally 
would--where in doubt--encourage you to err on the side of 
protecting the safety of innocent people. And I'm sure that you 
will.
    Let me move on. This involves the National Intelligence 
Estimates. We had an unfortunate case that I'm sure you're 
aware of with regard to Iran, where the way in which the 
National Intelligence Estimate was written highlighted the fact 
that apparently they suspended the weaponization aspect of 
their program. Then, in a footnote, it noted that they 
continued apace with their attempts to develop fissile material 
and delivery capabilities and those kind of things, and in fact 
may have restarted their weaponization efforts. We just don't 
know.
    So I would encourage you--just a comment--to look very 
carefully how these things are written, because that really 
undermined our diplomatic efforts to gather our allies to put 
pressure on Iran to stop those kind of activities. So my 
comment, my question is, is it your belief that Iran is seeking 
a nuclear military capability? Or are their interests solely 
limited to the civilian sphere?
    Mr. Panetta. From all the information that I've seen, I 
think there is no question that they are seeking that 
capability.
    Senator Bayh. Two quick questions. In, I guess, his exit 
interview or last testimony before the committee, Admiral 
McConnell talked about the leak phenomenon that I'm sure you'll 
become intimately familiar with. And he indicated that he had 
referred numerous cases to the Justice Department, none of 
which had been prosecuted. They couldn't make a case.
    It was his opinion that some of the pending legislation 
that would deal with shield laws and that kind of thing--this 
was his opinion now--would make it virtually impossible in the 
future to ever bring a prosecution for a leak. I'd be 
interested if you've had a chance to contemplate that issue 
and, if so, if you shared his opinion?
    Mr. Panetta. When I was chief of staff, one of the things 
the President constantly complained about were leaks. And 
they're not easy to deal with because you don't know, you know, 
where the leak came from. You can make all kinds of assumptions 
but it's very difficult to prove it.
    Having said that, you know, I consider leaking--
particularly where it involves secrets that are important to 
this country--treasonous. And I think they have to be 
prosecuted in that manner. And I guess I would hope to work 
with the Attorney General to make sure that we aren't simply 
referring these things into an empty hole, but that they would 
take actions against them.
    Senator Bayh. I've exceeded my time. Thank you.
    Chairman Feinstein. Thank you very much, Senator Bayh.
    Interestingly enough, the votes have been postponed until 
4:30. I believe we will be able to go through the remaining 
three Senators, and I know the Vice Chairman has some 
additional questions. So I'm going to try to keep going as long 
as we can in hopes of concluding it today.
    Let me call upon Senator Risch. You're next. And then 
Senator Hatch.
    Senator Risch. Thank you, Madam Chairman.
    Mr. Panetta, thank you for coming to see me. I sincerely 
appreciate it. Madam Chairman and members of the committee----
    Mr. Panetta. It's a part of the Senate I've never seen 
before.
    Senator Risch. Thank you for pointing that out. I'm 
reminded of that every day when I get to work. Madam Chairman, 
members of the committee, Mr. Panetta held up well under my 
withering cross-examination and answered all the questions I 
had very well and, I think, openly and candidly and I sincerely 
appreciate that. And that's all I have.
    Chairman Feinstein. Thank you very much, and thank you for 
remaining; it's very much appreciated.
    Senator Hatch, my old friend.
    Senator Hatch. You're right about that; I'm your old 
friend. But I'm also Leon Panetta's old friend as well, and I 
welcome you to the committee. And I appreciate the time and 
courtesy you showed me in coming to my office and spending as 
much time as you did. We've known each other a long time and 
we've worked together on numerous occasions, but none of these 
occasions dealt with national security issues at all.
    Now, I might add, you're not the most inexperienced person 
to be nominated for this job, as you know, and I certainly 
believe that one can lead the Agency without having spent a 
lifetime--or spent your previous life as an ``espiocrat''--
we'll put it that way.
    But you're choosing to accept this nomination at a time 
when this country is engaged in two major wars, as well as the 
global war against terrorism and terrorists. And the role of 
intelligence in prosecuting these wars is unprecedented. And 
the ranks of the intelligence officers, due to the Presidential 
mandate, are larger than ever, with many dynamic junior 
officers volunteering to spend their careers spending work 
that, by definition, will never be specifically heralded.
    In short, the role of intelligence has never been greater 
in advancing our national security, and the demands have never 
been higher. So I believe that you have a wonderful opportunity 
ahead of you to help our country and help protect it. And I 
believe you'll fulfill that responsibility very well.
    Let me just say, referring to Senator Mikulski's questions, 
you're aware that the CIA wrote Secretary Powell's speech?
    Mr. Panetta. Yes.
    Senator Hatch. They wrote it, and of course, George Tenet 
was seated right behind him at the time. So it's an important 
thing to realize that they were relying on worldwide 
intelligence at the time--not just ours--and every major 
country intelligence community believed that was the case. 
Right?
    Mr. Panetta. That's correct.
    Senator Hatch. Yes. Perhaps we can agree that the primary 
goal of the CIA is to prevent another ``strategic surprise'' 
such as the one that occurred on September 11th. Now, you held 
the position of chief of staff to the President from 1994 until 
1997. Now, presumably, this is the period when you had the most 
experience as a consumer of intelligence, although you did have 
experience in the military.
    Mr. Panetta. Senator, let me correct you. I was chief of 
staff from roughly 1993 to 1997--early 1997.
    Senator Hatch. I was wrong. I'll be corrected. It was 
during this period that President Clinton must have become 
aware of the rise of O sama bin Ladin. I first spoke publicly 
of this in 1996 and I threw out warnings that we'd better watch 
him because he's going to kill Americans, at the time. Now, as 
a consumer of intelligence at that time, what did you do with 
regard to the first reports you were getting about bin Ladin 
and al-Qa'ida? And I'd just like to see where we go on that.
    Mr. Panetta. Senator, I can remember in the briefings that 
I was part of that terrorism, very early on, became a major 
area of concern--that bin Ladin, other terrorists, particularly 
after what happened in New York at the Trade Center--the 
bombing of the Trade Center--that there was an awareness that, 
clearly, there were these major threats from terrorists that we 
had to pay attention to.
    And our national security advisors--our national security 
team--all continued to bring those matters to the attention of 
the President and there were oftentimes steps that were 
recommended to go after them when the intelligence was there 
that they were trying to either go after planes in Los Angeles 
or in the Philippines or what have you. So it was a matter that 
the Administration continued to pay attention to as a major 
priority.
    Senator Hatch. I notice my time is up, Madam Chair. So I'll 
finish with that.
    Chairman Feinstein. Thank you very much, Senator Hatch.
    It looks like we may be able to finish. I know the Vice 
Chairman has additional comments. So if it's agreeable with 
you, I'd like to just turn to him. Mr. Vice Chairman, why don't 
you proceed?
    Vice Chairman Bond. Thank you very much, Madam Chair. 
Several of our members on this side had left thinking they 
wouldn't have the opportunity to ask questions. There are a 
number of questions that I have further to clarify some of the 
issues that we have discussed. And I'm a little bit at a loss 
to make sure exactly what you meant.
    Now, near the end of my first round of questioning, you 
said, and we've discussed it a little bit, that you sent people 
to other countries for torture. And you said that--number one, 
I assume that was not the case when you were chief of staff. 
Were you fully advised of the extraordinary renditions that 
went on during that time?
    Mr. Panetta. Renditions were discussed. I was not aware of 
all of the steps that were taken, because sometimes those 
involved with the National Security Council were involved with 
particular renditions. But generally, they would indicate when 
they were moving someone to an area of jurisdiction or moving 
someone from outside the country into the country because of 
the need for prosecution.
    Vice Chairman Bond. And you said we have transferred 
detainees to other countries for torture. Now, what information 
do you have about that. Did I misunderstand you?
    Mr. Panetta. Well, let me correct it in terms of--I have 
not seen specific information and I did not have access to 
specific information within the Agency that determined that was 
the case. Clearly, there have been indications that 
waterboarding was used in instances early on, and----
    Vice Chairman Bond. In extraordinary renditions?
    Mr. Panetta. I don't know whether it took place in 
extraordinary renditions or not. But the indication has been 
that even Mike Hayden has basically admitted that----
    Vice Chairman Bond. Well, they said three detainees were 
subjected to waterboarding.
    Mr. Panetta. That's correct. And I don't know whether there 
were other steps. Clearly, under the definition that was 
provided by the Attorney General in providing additional 
enhanced interrogation, that was something that obviously was 
used. And, as I said, it followed the legal opinion that was 
provided at the time. Whether those were done as parts of 
renditions or not, I don't know.
    It is clear that there were black sites. It is clear that 
individuals were brought there. What happened there, you know, 
I can't tell you specifically what kind of actions were taken, 
but clearly steps were taken that prompted this President to 
basically say those things ought not to take place again.
    Vice Chairman Bond. Well, we have been advised that no 
extraordinary renditions occurred during your period in the 
Clinton Administration, during the Bush Administration, if 
there was any doubt that--if there was any question that 
torture might be used.
    But I want to go back to the assertion that there were 
renditions for torture. Are you saying now you have no 
information about that?
    Mr. Panetta. I'm saying that I can neither affirm or deny 
what took place, because I haven't had access to that 
information.
    Vice Chairman Bond. Well, so you would have to withdraw 
your blanket statement.
    Mr. Panetta. I guess my understanding is that there were 
renditions to countries that engaged in certain behavior. I 
have not seen that evidence. I'm basically saying what I've 
read in the press.
    Vice Chairman Bond. I think that's a lot different from 
making a blanket assertion. And I would hope you would make 
that clear, that you have no----
    Mr. Panetta. I will make clear, I have no official 
information from within that, in fact, those kinds of 
renditions took place.
    Vice Chairman Bond. All right.
    Now, in talking about disposition of detainees, Senator 
Bayh mentioned the problem of recidivism of some of the people 
who have been let loose from Guantanamo.
    I believe the one person who went back to Saudi Arabia has 
now been claimed by al-Qa'ida as the deputy chief of operations 
for al-Qa'ida in the Horn of Africa. And I read in the papers 
today that Saudi Arabia has on their most wanted list, I 
believe--the news story, and again this was only from the news 
story--has 11 Guantanamo alumni on their most wanted list.
    And I further understood that Saudi Arabia had what was 
regarded as one of the best rehabilitation programs of any of 
the countries to which we return their citizens whom we have 
captured on the battlefield.
    Now, does that raise a question? You said we'd have to 
review it. I think that raises a question about the 
effectiveness.
    Chairman Feinstein. I understand. Your time is up. And I 
know others, if there is going to be a second round, would like 
to----
    Mr. Panetta. If I could respond to your question----
    Vice Chairman Bond. I want to follow up but I do want to 
let others, if they have questions.
    Mr. Panetta. Well, you've raised obviously--I read the same 
stories and shared the same concern.
    I do think that there are indications that they have 
probably a pretty effective rehab program that they go on. But 
the problem is that we have evidence that some of these 
individuals are making their way back to al-Qa'ida, and that 
concerns me. I think in making determinations about what 
happens to prisoners at Guantanamo we really do have to make a 
determination whether or not in fact any of these individuals 
can be rehabilitated before we send them there.
    Chairman Feinstein. If I may just, before calling on 
Senator Wyden, say one thing, it seems to me that maybe too we 
ought to look at some different criteria, like despite the fact 
that someone did not commit an offense against the United 
States but was picked up on the battlefield--if in fact they 
have been trained or participated in training with al-Qa'ida in 
the past, it may well put them in a different category, is what 
I have been seeing from looking at some of this material, where 
they remain a security threat because the intention is to go 
back to al-Qa'ida, no matter how long it takes.
    Senator Wyden.
    Senator Wyden. Very briefly, Madam Chair, and I may have 
been out of the room when we got into this rendition issue as 
well, but I think that a fairly straightforward question gets 
at what I think your views have been, and that is, Mr. Panetta, 
do you believe that the U.S. has rendered people to a third 
country for purposes of torture?
    Mr. Panetta. I suspect that that's been the case.
    Chairman Feinstein. Speak up, please. I missed that.
    Mr. Panetta. I said I suspect that has been the case, that 
we have rendered individuals to other countries knowing that 
they would use certain techniques in order to get information 
from individuals that violated our own standards.
    That's what I suspect. I don't have any evidence of that. I 
haven't looked at the information within the CIA to determine 
whether or not that took place. But every indication seems to 
be that we used this extraordinary rendition for that purpose.
    Senator Wyden. Okay. We'll want to talk with you some more 
about that in a classified kind of fashion.
    I want to ask you one question about the Hamas and Gaza 
conflict. I mean, clearly this issue between Israeli forces and 
Hamas is going to be one of the major national security 
challenges facing the country. Now you've been out of the 
government for a while, and obviously you're going to get up to 
speed on it. What do you think, in terms of your current 
information on this, are the big challenges to understanding 
this problem?
    Mr. Panetta. Obviously this is an area that we really do 
need the very best intelligence that we can get with regards to 
what's taking place there.
    And I'm afraid that what we really need to do is to develop 
much better intelligence about what's going on with Hamas, 
where the tunnels are located, what's taking place with regards 
to these tunnels, what is the information with regards to how 
Iran is or is not providing arms to Hamas in this effort.
    I think we need to have the very best intelligence we can 
gather because if George Mitchell is to make a difference 
there, then he'd better have the best information we can 
provide as to what, in fact, is taking place.
    Senator Wyden. Thank you. Thank you, Madam Chair.
    Chairman Feinstein. Thank you very much.
    It's my understanding that Senator Chambliss is on his way 
back. He is not yet here. Senator Hatch, I understand you have 
some questions.
    Senator Hatch. I hate to keep you any longer, but if I 
could just ask a few questions, I'd appreciate it.
    We in Congress have certain biases when it comes to--you 
know, when we think of reform, as a creature of Congress, I 
know that you've shared some of those biases from time to time 
that we have around here. When we try to reform a large agency 
like the CIA, we create boxes, we move boxes around.
    And this is not to disparage, for example, the creation of 
the DNI, which I know is an initiative of our esteemed Chairman 
here. On the DNI to date, I still remain agnostic. But I have 
admired the most recent Directors and their contributions and 
look forward to working with our new Director.
    But this is what Congress does, because creating new boxes 
in an organization chart and moving others around are things 
that we can dictate through legislation. The organizational 
culture is much harder to affect by legislation. It's changed 
from the outset by sustained oversight.
    Now, in your view, is the organization and culture of the 
CIA the right one to face the threats of our lives today and 
the threats that may come in the future, or do you need to make 
some wholesale changes out there based upon what you do know at 
this point?
    And if you don't feel like you can answer that question, 
that's okay.
    Mr. Panetta. No, I think based on what I've seen out there 
and the briefings that I've had, I really do think that the CIA 
has the tools necessary to deal with the threats that are 
there. What we have to ensure is that we are continuing to push 
to get the very best people involved in human intelligence. And 
it's my view that we have got to have people who are well 
trained, who understand the language, who understand the 
cultures, so that we can place these people in positions where 
we can get the very best human intelligence.
    And I do think, while we have the tools, I think we still 
have to stress the kind of training, the kind of language 
training, the kind of diversity that would make the CIA much 
more effective in producing intelligence.
    Senator Hatch. Thank you. I want to help you in this job 
and will do whatever I can to bring help to you.
    Mr. Panetta. I appreciate it, sir.
    Senator Hatch. As you know, I support you.
    And last Wednesday, members of the committee heard about 
allegations of gross--it's been raised, but I'm going to raise 
it again--gross illegality by a CIA employee serving in a 
Muslim country. Now, we did not learn about that from CIA. We 
learned about that from ABC News, which I think is pretty 
pathetic.
    And then while we cannot and should not talk about an 
investigation that's under way, the manner in which this story 
unfolded was very troublesome to me, not only for the 
Legislative branch of government, which conducts CIA's 
oversight, but also, it blew back on the Executive as well, I 
think unfairly, in this case.
    First on oversight, do you believe such a development as 
alleged in the story that I've alluded to is a ``significant 
intelligence matter'' to be briefed to the oversight Committee 
in a timely manner?
    Mr. Panetta. Absolutely.
    Senator Hatch. Okay. Now, the repercussions for the 
administration. These allegations ran in the media less than 48 
hours after President Obama conducted a major high-profile 
public diplomacy effort by taking an interview with Al-Arabiya, 
one of the largest media broadcasters in the whole Arab world. 
And while I would disagree with some of the rhetoric the 
President used in the interview, I commend him for granting the 
interview and trying to communicate over the heads of the 
leaders of the Middle East--and right to the publics, as well. 
Now, it was bold. And based on first impressions, I think it 
had a positive effect.
    And then the CIA story comes out less than two days later. 
Now, I haven't seen substantive analysis of the impact, but 
it's not counterintuitive that such a story had to have 
dampened the effects of the President's efforts two days prior. 
And assuming the CIA couldn't control the release of the story 
on the allegations of gross illegality, but also assuming the 
CIA knew about this more than two days prior, what do you think 
they should have done to mitigate such conduct--or conflict, I 
should say?
    Had you been the Director the last six months, what would 
you have done differently? And what will you do if such an 
event occurs on your watch? And how will you manage to control 
spillover effects on other executive policy efforts?
    That's a lot of questions.
    Mr. Panetta. Senator, my understanding is that first 
information about this actually came to our attention some time 
back in October. And I think that was the time to have briefed 
the Congress and the committees as to that situation--A.
    B, that person should have been immediately brought back.
    I believe that he was relieved of duty at that time. But he 
was referred to the Justice Department for action. And as I 
said, I think the allegations were serious enough that he 
should have been terminated.
    Senator Hatch. Thank you. My time is up.
    Chairman Feinstein. Thank you very much.
    There are 12 minutes left on the first vote. Do you have 
additional questions?
    Vice Chairman Bond. Yes, ma'am. I have a significant number 
of questions, and Senator Chambliss and others have indicated a 
desire to do it. I would propose that we follow your suggestion 
and reconvene at 10:00 in the morning.
    Chairman Feinstein. All right. That's fine with me if 
that's agreeable with Mr. Panetta.
    Vice Chairman Bond. If that's all right, if that's 
convenient for Mr. Panetta. He's been very courteous.
    Chairman Feinstein. It is. And we will be in Hart 216 
tomorrow morning, Mr. Panetta.
    So I will recess the committee until 10:00 a.m. tomorrow 
morning for a hearing in Hart-216.
    [Whereupon, at 4:41 p.m., the Committee recessed, to 
reconvene at 10:00 a.m., Friday, February 6, 2009.]
                         Supplemental Material
[GRAPHIC] [TIFF OMITTED] 52741.003

[GRAPHIC] [TIFF OMITTED] 52741.004

[GRAPHIC] [TIFF OMITTED] 52741.005

[GRAPHIC] [TIFF OMITTED] 52741.006

[GRAPHIC] [TIFF OMITTED] 52741.007

[GRAPHIC] [TIFF OMITTED] 52741.008

[GRAPHIC] [TIFF OMITTED] 52741.009

[GRAPHIC] [TIFF OMITTED] 52741.010

[GRAPHIC] [TIFF OMITTED] 52741.011

[GRAPHIC] [TIFF OMITTED] 52741.012

[GRAPHIC] [TIFF OMITTED] 52741.013

[GRAPHIC] [TIFF OMITTED] 52741.014

[GRAPHIC] [TIFF OMITTED] 52741.015

[GRAPHIC] [TIFF OMITTED] 52741.016

[GRAPHIC] [TIFF OMITTED] 52741.017

[GRAPHIC] [TIFF OMITTED] 52741.018

[GRAPHIC] [TIFF OMITTED] 52741.019

[GRAPHIC] [TIFF OMITTED] 52741.020

[GRAPHIC] [TIFF OMITTED] 52741.021

[GRAPHIC] [TIFF OMITTED] 52741.022

[GRAPHIC] [TIFF OMITTED] 52741.023

[GRAPHIC] [TIFF OMITTED] 52741.024

[GRAPHIC] [TIFF OMITTED] 52741.025

[GRAPHIC] [TIFF OMITTED] 52741.026

[GRAPHIC] [TIFF OMITTED] 52741.027

[GRAPHIC] [TIFF OMITTED] 52741.028

[GRAPHIC] [TIFF OMITTED] 52741.029

[GRAPHIC] [TIFF OMITTED] 52741.030

[GRAPHIC] [TIFF OMITTED] 52741.031

[GRAPHIC] [TIFF OMITTED] 52741.032

[GRAPHIC] [TIFF OMITTED] 52741.033

[GRAPHIC] [TIFF OMITTED] 52741.034

[GRAPHIC] [TIFF OMITTED] 52741.035

[GRAPHIC] [TIFF OMITTED] 52741.036

[GRAPHIC] [TIFF OMITTED] 52741.037

[GRAPHIC] [TIFF OMITTED] 52741.038

[GRAPHIC] [TIFF OMITTED] 52741.039

[GRAPHIC] [TIFF OMITTED] 52741.040

[GRAPHIC] [TIFF OMITTED] 52741.041

[GRAPHIC] [TIFF OMITTED] 52741.042

[GRAPHIC] [TIFF OMITTED] 52741.043

[GRAPHIC] [TIFF OMITTED] 52741.044

[GRAPHIC] [TIFF OMITTED] 52741.045

[GRAPHIC] [TIFF OMITTED] 52741.046

[GRAPHIC] [TIFF OMITTED] 52741.047

[GRAPHIC] [TIFF OMITTED] 52741.048

[GRAPHIC] [TIFF OMITTED] 52741.049

[GRAPHIC] [TIFF OMITTED] 52741.050

[GRAPHIC] [TIFF OMITTED] 52741.051

[GRAPHIC] [TIFF OMITTED] 52741.052

[GRAPHIC] [TIFF OMITTED] 52741.053

[GRAPHIC] [TIFF OMITTED] 52741.054

[GRAPHIC] [TIFF OMITTED] 52741.055

[GRAPHIC] [TIFF OMITTED] 52741.056

[GRAPHIC] [TIFF OMITTED] 52741.057

[GRAPHIC] [TIFF OMITTED] 52741.058

[GRAPHIC] [TIFF OMITTED] 52741.059

[GRAPHIC] [TIFF OMITTED] 52741.060

[GRAPHIC] [TIFF OMITTED] 52741.061

[GRAPHIC] [TIFF OMITTED] 52741.062

[GRAPHIC] [TIFF OMITTED] 52741.063

[GRAPHIC] [TIFF OMITTED] 52741.064

[GRAPHIC] [TIFF OMITTED] 52741.065

[GRAPHIC] [TIFF OMITTED] 52741.066

[GRAPHIC] [TIFF OMITTED] 52741.067

[GRAPHIC] [TIFF OMITTED] 52741.068

[GRAPHIC] [TIFF OMITTED] 52741.069

[GRAPHIC] [TIFF OMITTED] 52741.070

[GRAPHIC] [TIFF OMITTED] 52741.071

[GRAPHIC] [TIFF OMITTED] 52741.072

[GRAPHIC] [TIFF OMITTED] 52741.073

[GRAPHIC] [TIFF OMITTED] 52741.074

[GRAPHIC] [TIFF OMITTED] 52741.075

[GRAPHIC] [TIFF OMITTED] 52741.076

[GRAPHIC] [TIFF OMITTED] 52741.077

[GRAPHIC] [TIFF OMITTED] 52741.078

[GRAPHIC] [TIFF OMITTED] 52741.079

[GRAPHIC] [TIFF OMITTED] 52741.080

[GRAPHIC] [TIFF OMITTED] 52741.081

[GRAPHIC] [TIFF OMITTED] 52741.082

[GRAPHIC] [TIFF OMITTED] 52741.001

[GRAPHIC] [TIFF OMITTED] 52741.002


 
 NOMINATION OF LEON PANETTA TO BE DIRECTOR, CENTRAL INTELLIGENCE AGENCY

                              ----------                              


                        FRIDAY, FEBRUARY 6, 2009

                               U.S. Senate,
                  Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to recess, at 10:03 a.m., in 
Room SH-216, Hart Senate Office Building, the Honorable Dianne 
Feinstein (Chairman of the Committee) presiding.
    Committee Members Present: Senators Feinstein, Rockefeller, 
Nelson of Florida, Whitehouse, Levin, Bond, Hatch, and 
Chambliss.

 OPENING STATEMENT OF HON. DIANNE FEINSTEIN, CHAIRMAN, A U.S. 
                    SENATOR FROM CALIFORNIA

    Chairman Feinstein. The hearing will come to order.
    We meet today to continue the confirmation hearing for Leon 
Panetta to become the Director of the Central Intelligence 
Agency. We'll proceed with the second round of questions for 
Mr. Panetta. Prior to that, I will call on Senator Chambliss. 
He did not have a first round, so he will go first with 
questions this morning.
    I hope there will not be a need to send a lengthy list of 
questions for the record following this hearing. I believe 
everybody has had ample chance to ask their questions. And I'd 
like to ask that all questions for the record be submitted in 
writing by 5:00 this afternoon so we can get them over the 
weekend to Mr. Panetta for his responses.
    Before the questioning begins, I'd like to offer the 
nominee the chance to make any statements up front or add or 
clarify any statements that he made yesterday. It's not 
necessary, Mr. Panetta, but if you'd like to, this is an 
opportunity.

    STATEMENT OF LEON PANETTA, DIRECTOR-DESIGNATE, CENTRAL 
                      INTELLIGENCE AGENCY

    Mr. Panetta. What I would prefer is just to proceed with 
the questions, and----
    Chairman Feinstein. Fine.
    Mr. Panetta [continuing]. As we proceed, then I can make 
any appropriate clarifications.
    Chairman Feinstein. Fine. And I ask unanimous consent that 
the record for the hearing be held open for additional 
materials regarding the nomination. Without objection.
    And I will turn to Senator Chambliss.
    Senator Chambliss. Thank you very much, Madam Chairman. And 
I apologized to the witness earlier for hopefully not being 
responsible for him having to be back here today. But 
obviously, with what was going on on the floor yesterday, I 
just got caught twixt and between.
    First of all, Mr. Panetta, thank you for your willingness 
to come back in public service. You and I had a lot of contact 
during your days in the Clinton Administration. And you served 
us well, and we appreciate your willingness to come back.
    And I want to start off by asking about the interrogation 
process, and particularly about what has transpired over the 
last several years since September 11th. There appears to be 
some indication from some folks on the Hill that they're not 
only interested in going back and reviewing what's happened in 
the past, but even potentially moving towards prosecution of 
individuals who carried out interrogations in a way that we may 
not be interrogating folks going forward, even though there 
appeared to be legal justification for those interrogations.
    And these individuals, obviously, will be your employees or 
your contract employees as DCI, so I'd like your comments and 
what your thoughts are relative to that issue.
    Mr. Panetta. Senator, thank you for the question. And as I 
indicated yesterday, my view is that, whether you agree or 
disagree with the opinions that were issued by the Attorney 
General with regards to interrogation methods, that the 
employees at the CIA were operating pursuant to those opinions. 
And I think as long as you operate based on the legal opinions 
that are provided by the Justice Department, by the Attorney 
General to guide you in those interrogations, that frankly you 
ought not to be prosecuted, you ought not to be investigated; 
you did your job, pursuant to the law, as it was defined by 
that Administration.
    And for that reason, certainly as Director of the CIA, it 
isn't my intent to go to the past. I think we've got to move 
forward to try to deal with the challenges we face from here on 
out.
    Senator Chambliss. Obviously I can't imagine anything of 
more detriment to the morale of the brave men and women that 
carry out the job of the CIA if in fact the opposite to what 
you just alluded to was true or was to take place.
    One of the criticisms of you--and you and I have talked 
about this in my office--is the fact that you don't have the 
experience that maybe some other DCIs have had in the past. And 
as we talk through what experience you do have there, 
obviously, as chief of staff to the White House you indicated 
you had the benefit of the PDBs, and you also sat in on 
national security meetings.
    During that time when you were chief of staff, there were 
two NIEs that were issued relative to terrorist threats to the 
United States, one in 1995, I guess before you were chief of 
staff, and one in 1997. And, according to the 9/11 Commission 
report, the 1995 NIE predicted future terrorist attacks against 
the United States and in the United States, and it warned that 
this danger would increase over the next several years. It even 
indicated that the most vulnerable assets were the White House, 
the Capitol, such symbols of capitalism as Wall Street, et 
cetera.
    My question is, were you involved in discussions relative 
to the issues pointed out in those NIEs? If so, tell me what 
the genesis of those discussions was and what preparations or 
action did you and those that you were involved in discussing 
this issue take relative to those significant warnings?
    Mr. Panetta. Senator, acting on recollection here, I 
believe I was there for the 1995 NIE as the chief of staff. I 
was not there in 1997; I'd left that position at that time.
    But with regards to the terrorism NIE that was provided in 
1995, as I mentioned yesterday to the Committee, terrorism was 
one of the major priorities that was identified within the 
Administration that needed attention--obviously, the bombings 
that took place, and the fact that it was clear that there was 
a rising threat with terrorists throughout the world. This 
became a major focus of attention within the Administration and 
within the White House.
    The national security advisers--Tony Lake, Sandy Berger--
constantly reminded the President of the importance of dealing 
with this issue. And as a result of that, people like Richard 
Clarke and others--and I can remember this, as chief of staff--
brought to my attention as chief of staff when there were 
indications that additional threats were out there.
    We had one instance where there were--there was a 
possibility that we had received information that they would 
take over airlines in the Philippines or be able to hold 
hostages. And as a result of that, we advised and took steps to 
ensure that would not happen. There were other things that took 
place, as well. But I can assure you that within the 
Administration there was a great deal of attention to the issue 
of terrorism and what steps we needed to take to try to protect 
this country.
    Senator Chambliss. Thank you, Madam Chairman.
    Chairman Feinstein. Thank you very much.
    We will now go on to our second round of questions. I 
wanted to ask you a question about covert action. The CIA 
conducts covert actions under clear authorities and with clear 
oversight. And that's all laid out in the National Security 
Act. Each covert action must be authorized by a written 
Finding, signed by the President. And significant undertakings 
are governed by what we call MONs, or memoranda of 
notification. The Intelligence Committees must be notified. And 
there are quarterly updates to the Committees. We're going to 
have one shortly.
    The Department of Defense has separate authorities under 
Title 10 for clandestine operations for military source 
operations. That's what they call it, in quotes, ``military 
source operations.'' Now, these often are almost identical to 
covert operations, but under a different guise.
    So you have one entity doing this, and you have another 
entity doing this. Do you believe the CIA should be consulted 
on these defense activities? Should the chief of station have 
oversight and the ability to veto such intelligence activities 
in his or her area of responsibility?
    Mr. Panetta. Madam Chairman, this is an issue that I think 
we are going to have to work with the committees, to ensure 
that there is not only proper notification but that there's 
coordination of these efforts. These are all covert actions. 
They come under different titles.
    Title 50 requires, as you pointed out, that we go to the 
President, that we get the Finding, that we provide notice to 
this Committee. There are rules required under the law in order 
to ensure that the Committee and others are properly notified 
about the actions that are taken under covert action.
    Under Title 10, these are military actions taken to 
basically deal with the environment in the battlefield. That's 
how this originated. However, as a result of what we've seen in 
the last few years, there are clearly covert actions that are 
being taken that have to be coordinated.
    There's no question here. There has to be coordination. If 
each of these go off on their own, we're going to be tripping 
over each other and we're going to be failing to use resources 
properly. And frankly it isn't going to work. What we need to 
do is to have better coordination of these efforts.
    And I've talked to the Secretary of Defense about this, 
that we need to improve our coordination, that people in the 
field, particularly the station chiefs, need to be aware of 
these efforts so that they can coordinate them and make sure 
that each understands what is involved here. And I would think 
the third thing that I would suggest to you is that there has 
to be some kind of notification process that's involved.
    Now, I understand, they do provide some notice to members 
of the Armed Services Committee. But, very frankly it seems to 
me that it's appropriate that perhaps the committees in the 
Congress establish some kind of notification procedure to 
ensure that it isn't just the Armed Services Committee but it's 
the Intelligence Committee that is aware of these kinds of 
actions.
    Chairman Feinstein. I thank you for that. I think that's 
very important. Some countries may be very small. The 
ambassador doesn't know. The chief of station doesn't know, and 
we don't know. And I think that's a big mistake. So I very much 
appreciate that answer.
    Second question: What steps do you intend to take, beyond 
what has been done already, if there is anything, so that the 
analysis of information is improved, so we can be assured that 
a flawed and bad NIE cannot happen again?
    Mr. Panetta. It's really important to have analysts who are 
trained, who are aware of the country that they're getting 
information from, the sources that they're getting information 
from, and analysts who are prepared to ask questions, to 
challenge the information that's being provided, so that they 
can ensure that information comes from reliable sources.
    I think, you know, I'm very impressed by the analysts that 
I've met. They obviously are in their own ways independent and 
objective. And I think that's important.
    But sometimes there is--as we all know, within any 
bureaucracy there's a kind of groupthink that takes place, in 
which there's a sense that you kind of do it by the numbers. 
Information comes in, and you pass it on, and nobody says 
``stop, wait, what's involved here?'' and is willing to 
challenge it. Because kind of the message in the bureaucracy, 
from my own experience is, you don't make waves.
    Well, very frankly, you have to make waves. If you're not 
asking those questions, if you're not challenging, then that's 
when we make mistakes, and that's when this country becomes 
vulnerable. So what I hope to do, working with the good people 
in that section, is to create an atmosphere where they're 
willing to ask those questions and to challenge it, and if it 
doesn't happen at their level, you can bet it's going to happen 
at the Director's level.
    Chairman Feinstein. Well, I just want to say that my prime 
mission, and one of the reasons I was interested in the 
chairmanship of this Committee, is to see that it never happens 
again. I know I cast a vote that I have to live with for the 
rest of my life, based on that Iraq NIE. And I think about it 
every single day. So I will plague your house to see that we 
have in place everything we can to see that intelligence is 
good and never again is a Secretary of State put out before the 
world based on a CIA speech that is dead wrong.
    Mr. Panetta. I agree with that.
    Chairman Feinstein. Thank you.
    Mr. Vice Chairman.
    Vice Chairman Bond. Thank you, Madam Chair. And again, 
thank you, Mr. Panetta, for bringing your considerable 
background, experience and abilities to this position. I 
appreciated your answers to Senator Feinstein's two questions, 
and I agree with those.
    But yesterday you made a statement with which I believe 
everyone on this Committee agrees, and you said, ``We can 
protect this country. We can get the information we need. We 
can provide security for the American people. And we can abide 
by the law.'' That was the position of your predecessors in the 
previous administration, and that's what I've been aware of 
ever since I've served on this oversight panel. And I'm very 
pleased, as we all are, that you'll continue, if confirmed.
    But I need to pick up where you left off yesterday, because 
I'm still not sure I completely understand your follow-up to 
one of your responses to the Chair during the first round of 
questions yesterday, and several others, in which you stated 
that the United States has sent individuals to other nations 
``for torture.'' That implies deliberate intent of U.S. 
officials to send individuals to other countries for the 
purpose of being tortured.
    That's a serious allegation, and one which should not be 
made lightly or without evidence. Now, if that's ever happened, 
it's news to me. Former Secretary of State Rice made clear on a 
number of occasions what the Bush Administration policy was on 
renditions. For example, December 5, 2005: ``The United States 
does not transport, and has not transported, detainees from one 
country to another for the purpose of interrogation using 
torture. The United States has not transported anyone and will 
not transport anyone to a country when we believe you will be 
tortured. Where appropriate, the United States seeks assurances 
that transferred persons will not be tortured.''
    Now, if you're saying that she was wrong and this was done, 
then I would expect your first order of business as Director of 
the CIA to round up your people that did this and turn them 
over with a crimes report to the Justice Department for 
prosecution.
    I, for one, don't believe this has happened. So you said 
yesterday that you have not even been briefed into these 
programs, so I'm not sure how you can make such a statement. So 
my question is, what evidence are you basing this assertion on? 
Or would you like to retract that statement.
    Mr. Panetta. Thank you for the question, Senator, because I 
think there is some clarification required here because 
renditions are one of these areas where the press has 
identified extraordinary renditions. Nobody quite has defined 
exactly what that means; everybody has a certain reaction to 
what is involved and there are obviously other kinds of 
renditions. Let me describe what I think are the three types of 
renditions that we need to discuss.
    One is the rendition that takes place where individuals 
have been delivered to black sites and questioned there. Under 
the Executive Order that the President provided, because it 
requires that we eliminate black sites, that kind of rendition 
will not take place because black sites will no longer exist.
    There is a second kind of rendition, where individuals are 
turned over to a country for purposes of questioning, and it is 
my understanding that--and I want to clear up the record on 
this--there were efforts by the CIA to seek and to receive 
assurances that those individuals would not be mistreated and 
that they did receive those assurances.
    As I pointed out yesterday, there are obviously some claims 
that was not the case; I am not aware of the validity of those 
claims but clearly those claims have been made that was not the 
case. With regards to that area, I think using renditions we 
may very well direct individuals to third countries. I will 
seek the same kinds of assurances that they will be not treated 
inhumanely. I intend to use the State Department to ensure that 
those assurances are in fact implemented and stood by, by those 
countries.
    In addition to that, I would point out that under the 
Executive Order, we are to look at those kinds of transfers and 
how that takes place to ensure that those kinds of assurances 
are received and that those countries stand by those 
assurances.
    And I would point out there's a third area of renditions, 
which involves transferring individuals to countries for 
purposes of legal action, and in those instances I think those 
are appropriate tools of rendition and hopefully we would 
continue to use those.
    Vice Chairman Bond. But to follow up on that, I don't 
believe I was clear on your answer. You stated yesterday that 
we transported people for the purpose of torture. Now, nothing 
you've said tells me that you have any solid information for 
that. Do you have any information? So would you retract that 
statement?
    Mr. Panetta. But Senator, on that particular quote--that 
people were transferred for purposes of torture--that was not 
the policy of the United States. It was clearly to transfer 
people for purposes of questioning and receiving assurances 
that would not take place. So to that extent yes, I would 
retract that statement.
    Vice Chairman Bond. All right, because that's a serious 
assertion. Maybe media, liberal blogs--but having made that 
statement, you--not a private citizen, but as a nominee for 
this very important position--cannot be making statements or 
making judgments based on rumors or news stories. And that was 
one of the elements that was at the base of our misinformation 
and the bad intelligence we got, so I would ask you to assure 
this Committee that you will not make rash judgments based on 
hearsay, you will demand that the Agency make statements only 
based on hard facts and rule out political bias, determine the 
truth and then deliver your best judgment to us and to the 
President and, to where appropriate, to the media. Do I have 
your assurance?
    Mr. Panetta. Senator, you have my assurance that I intend 
to do that. My approach is going to be to seek the truth and do 
everything possible to seek the truth and I will in turn 
provide that kind of information to this Committee.
    Vice Chairman Bond. Thank you, Mr. Panetta.
    Thank you, Madam Chair.
    Chairman Feinstein. Senator Whitehouse.
    Senator Whitehouse. Thank you, Madam Chair.
    Two questions at this point, Mr. Panetta. The first: 
There's been some discussion about the rule of law and how it 
applies to interrogations that were conducted by the CIA. One 
of the hazards, as we all know, of the rule of law is it's not 
always easy. It's not always convenient and it's not always 
conducive to everybody's good morale. But it is, in my view, a 
very high principle.
    In this case, the rule of law includes things like defenses 
that follow from, say, advice of counsel. Those are defenses 
that have their own legal limitations to them. You don't give 
up on a racketeering prosecution against a mobster just because 
he has a mob lawyer, who's handed him a document saying this is 
a legitimate business proposition. Advice of counsel has its 
limits. Waiver by estoppel is a doctrine that prevents a 
government agency that has licensed conduct from then 
sanctioning the conduct that it has itself licensed.
    That as a doctrine of law also has its own limitations. 
However all this works itself out, will you assure that 
whatever backward look is necessary into the CIA and whatever 
forward conduct is undertaken by the CIA abides ultimately by 
the rule of law?
    Mr. Panetta. Yes, I think, as I said yesterday, as the son 
of immigrants who came to this country, the one thing that they 
always said was one of the reasons they came to this country 
was because of the rule of law. And I think that's what has 
made this country great; that's why we stand out as moral 
authority around the world, is because we abide by the rule of 
law. And I feel it's my obligation and, frankly, my sworn duty 
to ensure that we live by that rule of law in whatever we do.
    Senator Whitehouse. Even if it's not easy, even if it's not 
convenient, even if it's not conducive to everybody's good 
morale?
    Mr. Panetta. Senator, as an attorney, having dealt with 
cases like you and obviously having run into serious challenges 
as you go through a trial process to try to make those 
decisions, I'm still convinced that in the end it is the best 
process in the world for providing due process to individuals. 
And yes, it gets tough sometimes and yes, it's not convenient 
and yes, sometimes you don't get to the end you want to 
achieve. But the reality is that if you abide by due process, 
if you abide by our constitution and the rule of law, that in 
the end we serve the best interest of this country.
    Senator Whitehouse. Switching to the other side of the 
world, you noted in your written statement that al-Qa'ida has 
reestablished a safe haven in the border region between 
Pakistan and Afghanistan. Now, I've been out there and been 
thoroughly briefed on the difficulties that this border 
creates. The Talibani syndicates and al-Qa'ida don't even 
notice it. It is a zero-factor in their operations. For us, it 
is a significant factor because of the sovereignty prerogatives 
of the Afghanistan and Pakistan governments.
    We have there a border coordination center that has been 
set up--just one. There are supposed to be six. My sense is 
that it's going very slowly. Only the one is operational and I 
think these border coordination centers, if they can develop 
into trilateral targeting and tactical direction centers for 
that area, could provide enormous advantage in the battle with 
al-Qa'ida and the Taliban syndicates.
    I will ask you this question for the record because my time 
is running out and if you could get back to us in writing I 
would appreciate it, but I would like to know what do you think 
the U.S. government can do to move more quickly to establish 
the remaining five border coordination centers and make them 
secure, because as we all know there have been issues with 
information leakage in various places, and effective--as 
effective as we are capable of making them, which in other 
areas and contexts the coordination efforts have been 
extremely, extremely effective.
    Mr. Panetta. Senator, be careful not to get into a 
classified area here, but obviously let me look into that issue 
and try to get you the answer that I can provide because I 
think that issue is important. It's obviously an area where 
operationally there are all kinds of things that are taking 
place that are very important. But I believe that we need to 
set up those kinds of border stations in order to improve our 
relationship, in order to improve our security, particularly in 
Afghanistan.
    Senator Whitehouse. It has operational and political value 
because of the sovereignty problem. Thank you very much, Madam 
Chair.
    Chairman Feinstein. Senator Hatch, you are next.
    Thank you, Senator Whitehouse.
    Senator Hatch. Well, thank you, Madam Chair.
    I'm not going to ask you, Leon, what you've been reading on 
intelligence as you prepare for this key position, but I am 
going to remind you that this Committee does much more than 
conduct nomination hearings, produce authorization bills--we 
will be passing one later this year, won't we, Madam Chair? 
[Laughter.]
    Vice Chairman Bond. Two.
    Senator Hatch. Two--that would be a wonderful thing.
    As I mentioned in Admiral Blair's hearing, the Committee 
has conducted historic investigations, none more historic than 
the one that resulted in our report of July 2004 on the 
intelligence failures related to the Iraqi WMD. And yes, I'm 
blowing the Committee's horn but yes, this intelligence failure 
was spectacular and I cannot imagine anyone taking any 
responsible position in the IC without understanding it in 
detail. Have you read that report yet?
    Mr. Panetta. I have not read the full report.
    Senator Hatch. You need to read it. I think it's important 
to you. Do you think it's important?
    Mr. Panetta. Absolutely.
    Senator Hatch. Okay. Now, this may be unfair at this time 
but let me ask it anyway. What in your opinion were the causes 
of the intelligence failure regarding the Iraqi WMD and do you 
believe this could occur again and why and why not?
    Mr. Panetta. Well, obviously, I mean, this Committee did a 
full study into the issue and provided that report. I've looked 
at some of the summaries that were involved there and there 
were several problem areas that developed. Obviously, one was 
that we did not have sufficient sources of information within 
that country to be able to verify that there were in fact 
weapons of mass destruction. And so a lot of this is the result 
of not having adequate resources, not having adequate assets 
within the country to help verify that kind of information.
    Secondly, we relied on sources that were questionable in 
terms of saying that it was present. The questionability of 
those sources was not really brought to the attention of the 
people that should have known that. And thirdly, I think there 
was a kind of group-think, in which everybody basically assumed 
that those weapons were there, that Saddam Hussein had used 
those weapons and therefore he must have them at the present 
time and frankly his behavior conveyed the impression that 
somehow he continued to maintain them.
    Now, I think it's the result of all of that produced the 
NIE that said, essentially, that he had all of these weapons of 
mass destruction. It is a great learning lesson as to how you 
should not do intelligence. The problem is that sometimes when 
policymakers are trying to make decisions and move to a certain 
conclusion that people who are involved in intelligence will 
try to respond to what policy makers want to hear rather than 
the truth. And I think that's what took place.
    Senator Hatch. While the DNI is specifically a named 
participant, the CIA Director is not specifically named as a 
member of the review team created by Executive Order that will 
consider the status of Guantanamo Bay detainees.
    Do you expect to play, either personally or through 
personnel of the CIA, any role in the disposition of these 
detainees? And let me just add a couple other questions to 
that.
    If criminal trials are initiated, either in the federal 
district courts or in U.S. military courts, what issues are 
there and what procedures should apply to take into account the 
need of the CIA to protect its sources and methods? That's an 
important question.
    And finally, what criteria do you believe should be used to 
determine whether a detainee is tried, held indefinitely 
pursuant to a procedure other than trial or returned to another 
country or released? Sorry to add all those questions, but I 
think they go together.
    Mr. Panetta. Thank you, Senator. Obviously, there is 
established, under the Executive Order, a review process to go 
through the very questions that you've raised and to determine 
which individuals can be brought to trial, which ones ought to 
be transferred to other countries, and which ones ought to be 
held indefinitely. The reality is that, as Director of the CIA, 
I think I'll have to play a role because there's information 
involved here that involves our assets, that involves 
individuals and sources that were involved in the arrest of 
many of these individuals.
    And so I hope to participate in that process, to provide 
that kind of information. Obviously, if there are situations 
where the information would reveal important sources or 
information that could jeopardize lives, then it would seem to 
me that the Attorney General and others who are going to make 
the final decisions need to be aware of that, because that 
could impact on whether or not these individuals are tried.
    There are going to be a group of individuals that I think 
all of us recognize will not be able to be tried for those 
reasons and probably ought not to be transferred because they 
remain dangerous. And it is that situation that I think we 
probably all need to focus on, because if we are going to 
maintain those individuals and keep them in prison, the reality 
is we probably ought to establish at least some kind of 
reporting mechanism with the federal courts to ensure that 
there is at least some mechanism to make the courts aware of 
why we are continuing to hold these individuals.
    Senator Hatch. Well, thank you.
    Thank you, Madam Chair.
    Chairman Feinstein. Thank you very much, Senator Hatch.
    We are joined by Senator Nelson. As you know, Mr. Panetta, 
he is one of the crossover members between Armed Services and 
Intelligence, and we're delighted to have him. This is his 
first round, so if you require a little bit more time, just say 
so. Senator Nelson.
    Senator Nelson. Well, if I took any more time, it would 
certainly upset Senator Rockefeller, who----
    Chairman Feinstein. You don't want to do that.
    Senator Nelson [continuing]. Who likes to cut me off. 
[Laughter.]
    But I'm accustomed to operating within those constraints. I 
just want to say that, as your name came up and the fact that 
the first questions arose, does Leon have any experience in 
this area, my response--and I think most of our responses--is 
that anybody who has been chief of staff in the White House is 
capable of handling any position in the government of the 
United States. And that, especially since you have had the 
wisdom, as you announced yesterday, to keep a real professional 
like Steve Kappes as the deputy.
    I think it's a great team. One area that has not been 
covered is that there was some question in the past as to 
whether or not a message was sent of questioning or 
intimidation of the Inspector General of the CIA for that IG to 
do the aggressive job that an IG ought to do. We've seen that 
in some other agencies in the last eight years, and I'd like 
for you, just for the record, to say how you're going to handle 
your Inspector General.
    Mr. Panetta. Well, I'm a believer in inspectors general. I 
was in the Congress when the inspector general law was passed. 
I really do believe you have to maintain a person who's 
independent, who can investigate matters within the various 
departments and agencies. And I believe that having an IG at 
the CIA is extremely important for those very reasons.
    And from my point of view, I expect the IG to perform 
independently, to be objective, to do the investigations that 
have to be done and to arrive at those conclusions without any 
interference from the Director or from people within the 
Agency. You need to have independent judgments that are made by 
the IG. And, if I'm confirmed, that will be the case with 
regards to my IG.
    Senator Nelson. Just in conclusion, Madam Chairman, I just 
want to say that the privilege that I've had on this Committee 
and traveling on a good part of the globe and meeting the young 
people that are going into the CIA, I am mightily impressed. 
And as the Director-designate indicated yesterday, so much of 
the success of his agency will be in human intelligence. And 
these young people that we have on the ground all over the 
globe are just exceptional. So I'm very optimistic.
    Thank you, Madam Chairman.
    Chairman Feinstein. Thank you very much, Senator Nelson.
    Senator Rockefeller.
    Senator Rockefeller. Good morning, Director-designate 
Panetta.
    Mr. Panetta. Good morning, Senator.
    Senator Rockefeller. This may have been discussed somewhat 
this morning already, but I wasn't here so how am I to know? I 
think, from my point of view, it's indisputable that the Bush 
Administration changed the United States interrogation and 
detention policies after 9/11. They used the fear of attack, 
John Yoo, neo-con cabal--I mean, you can mix whatever you want 
into it--but there was no question, you know, this man can no 
longer do us any justice. These kind of public statements 
indicate carrying something further.
    So I have disagreed strongly with the direction of the 
administration. But let me ask you this. Do you think that the 
Bush Administration ordered any renditions for any other 
reasons than because they thought, rightly or wrongly, that it 
would help secure our country?
    Mr. Panetta. No, I don't question the sincerity of the Bush 
Administration in trying to make decisions that they thought 
would protect the security of this country. I think they made 
some wrong decisions; I think they made mistakes. But I don't 
question the sincerity of how they approached that issue.
    Senator Rockefeller. So that you think that sometimes the 
government can get off track in doing things that are 
counterproductive, even if they intend for those things to be--
--
    Mr. Panetta. I think sometimes they believed that the ends 
justified the means, and I think that's where people sometimes 
go wrong. But I don't question that their ends were what they 
thought was in the security interest of this country.
    Senator Rockefeller. Do you think that the Bush 
administration got off track, for whatever motivation, maybe a 
good motivation, or not, on rendition policies?
    Mr. Panetta. I think what happens is that, obviously, in 
the concern about--particularly after 9/11--the concern of what 
happened to the country, the concern that perhaps we might 
suffer another attack, that in that mode that followed, in 
which there was a great deal of consternation about what could 
happen next, that it's at that point that you have to kind of 
stop and say, wait a minute, how do we approach this to ensure 
that we don't violate the Constitution and we don't violate the 
laws that are out there?
    And I think, to some extent, in that situation, the mood--
and I can imagine this within the Oval Office, having been 
there--that the mood is, we have to do whatever's necessary and 
take whatever steps we can, and that we can't be bothered with 
legalisms. And I think it's that kind of thinking process that 
probably took place.
    Senator Rockefeller. All right. Let's go on. We've got more 
than a billion Muslims in the world and President Obama has 
spoken about that, you know, that there are some bad apples in 
there, but these are good people. Many of them are American 
citizens.
    Their income, actually, is higher--average income is higher 
than the non-Muslim American income, because they're very, very 
successful in what they do and work very hard. Do you think 
that they believe the United States at least enabled the 
torture of Muslim detainees and, at worst, participated in 
torture? Do you think that would be their view?
    Mr. Panetta. Well, it's always dangerous to draw broad 
conclusions about how a group of people feel. I mean, I am sure 
there are those that think that was the case.
    Senator Rockefeller. And do you think that affects our 
counterterrorism policies--the effectiveness of them, 
implementing them?
    Mr. Panetta. Well, I don't think there's any question but 
that the approaches that were taken, the decisions that were 
made as to how we treat individuals has a serious downside in 
terms of causing damage to the moral authority of this country 
around the world. Our greatest weapon is our moral authority 
and our stature and the view that we always abide by the 
Constitution, and I think the sense that we were willing to set 
that aside, I think, did damage our security.
    Senator Rockefeller. Madam Chairman, I'll just ask to 
finish with a statement. Don't you think it's important, 
therefore, that if there are ambiguities, let's say if there's 
an incident and then they tighten up, they want to hunker down 
in the national security, but on the other hand, if they have, 
let's say, sort of what they call a unitary form of 
government--that there's really only one branch of government 
that counts--that we go to particular lengths, and that you 
might go to particular lengths, working with the White House to 
make sure that what is begun in the way of unusual methods is 
shared a little bit more easily with the Intelligence 
Committee, or a little more early with the Intelligence 
Committee than five years later?
    Mr. Panetta. I think the best way to ensure that those 
kinds of mistakes are not made is to rely on the process, our 
democratic process. A, that involves, within the White House 
and within the Administration, people who are willing to stand 
up and speak what they believe, that they're willing to say 
wait a minute, a serious mistake is being made here. I mean, 
that's not easy. I've been there; I know what it's like. People 
like to tell the President what he likes to hear.
    You have to have people who are willing to stand up and say 
this is a mistake. And frankly, if they feel strongly enough 
about it, they ought to quit to make that point. In addition to 
that, the other part of it is the ability to speak to members 
of this Committee, who have a lot of experience, who have a lot 
of dedication to what this country is all about, and to have 
your input in that process. I mean, it makes a difference if, 
you know, the Vice Chairman or the Chairman go to the President 
of the United States and say wait a minute, you know, we've 
just been notified about this; this is wrong.
    It makes a President stop and think about what's going to 
happen. Those are the checks and balances in the democratic 
process. And when you avoid those checks and balances, that's 
when we get in trouble.
    Senator Rockefeller. And notification is at the heart of 
that?
    Mr. Panetta. Absolutely.
    Senator Rockefeller. I thank the Chair and I thank the 
Chairman for patience.
    Chairman Feinstein. Thank you very much. We'll begin 
another round.
    Mr. Panetta, sometime in late 2006, I had a call from Al 
Gore who asked me if I would take a look at a program. The 
program was MEDEA. And I said I would and I had a meeting in 
February of 2007. I received the classified and the 
unclassified documents. I looked at them and what I found was 
that a program had been instituted where a very distinguished 
scientific panel was put together and certain assets were used 
to map climate change.
    And as I looked at some of the mapping that was done, I 
found it to be very precise and very interesting, because it 
had a national security nexus. And it became a kind of ongoing 
compendium of what was happening in the world. Now, it has had 
people that are not very enthusiastic about it, to be very 
candid, within the Agency. We put it back into the intelligence 
budget, and I'd like to ask that you take a good look at both 
the classified and unclassified documents and, hopefully, 
support this program to its fullest.
    Nothing can track climate change quite like the CIA's 
assets can. And if you do this over a period of years, even 
decades, I think we're going to get very, very useful and 
lifesaving information from it. So I am a big supporter of it.
    Mr. Panetta. Madam Chairman, the former Vice President gave 
me a call on this very issue and indicated his concern, having 
put this in place. And I know that you have exercised 
leadership on this issue to try to maintain that program. You 
know, my view is that we need to seek out important 
intelligence in many different ways in order to determine what 
the impact is going to be in terms of the security of this 
world.
    For example, I think, on the economic side, we need to look 
at the impact of a worldwide recession in terms of the 
stability of countries like China and others and what the 
impact will be in terms of our own security.
    The same thing is true with regards to climate change 
issues. We need to know if there are countries that are going 
through droughts--serious droughts--if there are sea-rise 
impacts on ports and facilities. We need to know that. We need 
to know what's happening in the world as a result of that. And 
I think that's an important aspect of gathering intelligence in 
a broad range of areas in order to get the best information 
possible.
    Chairman Feinstein. Thank you very much.
    Now, a couple of quick questions. You know our concern 
about not being notified about people being taken from the 
field because of unacceptable activities. And I would like your 
commitment that the new Congressional relations person for the 
department carry out the National Security Act fully in terms 
of notifying this Committee, in writing, of bad events. The 
good takes care of themselves; the bad do not. And may I have 
that commitment, please?
    Mr. Panetta. Absolutely.
    Chairman Feinstein. And will you do this as a first order 
of business?
    Mr. Panetta. Yes, I will.
    Chairman Feinstein. I appreciate it very much. I have 
watched a situation--and I agree with what Senator Nelson said; 
people in the CIA are, in the main, very good. They care a lot 
about the country. They work very hard. They put themselves in 
great personal danger. And it's a very difficult job.
    But I have seen occasions where the Agency has engaged in 
poor analytic tradecraft--we've been through that--poor use of 
taxpayer dollars, unbecoming conduct overseas and even applying 
incorrect legal standards to CIA operations.
    And they've had no adverse affect on their career. As a 
matter of fact, some of them have even been promoted. How do 
you intend to hold people accountable for failures in carrying 
out what are, in fact, official duties?
    Mr. Panetta. Well, I'm a strong believer in ensuring good 
discipline within any operation, but particularly within the 
CIA, I think, it's very important that people behave according 
to a certain standard, because these are individuals that are 
out there. They're in difficult positions. They have to serve 
in difficult places and they have a difficult mission to 
implement.
    We have to rely on their good character. We have to rely on 
their commitment to a standard of behavior that will ensure 
that the difficult job they do will not result in the kind of 
accusations and misbehavior that can damage the agency. I want 
to get that message across to the employees.
    I believe as you do that a large majority of individuals 
associated with the CIA are good people trying to do the right 
kind of job. But one bad apple can hurt. And so my view will be 
that, if I find that kind of misbehavior, I'm going to take 
action to make sure that those kinds of individuals are either 
withdrawn or terminated from their position.
    Chairman Feinstein. Thank you very much.
    Mr. Vice Chairman.
    Vice Chairman Bond. Thank you very much, Madam Chair and 
Mr. Panetta.
    We certainly agree on accountability, and the chair and I 
are working together to make sure we operate on a bipartisan 
basis, that our majority and minority staffs work together. And 
we also have to have open channels of communication with the 
intelligence community.
    You may have already said it, but for the record, will you 
cooperate with the members of the Committee, Democrat and 
Republican, the chiefs of staff of the majority and the 
minority, responding promptly to any written or oral inquiries, 
sharing information as soon as it is available, directing your 
staff to do the same?
    Mr. Panetta. Yes.
    Vice Chairman Bond. You've heard several examples where 
that's not happened. And we also want to set a new tone of 
bipartisanship on the Committee and assure accountability. And 
not just for you, but of our own operations as well. If we 
expect you to keep your house, then we expect you to help us. 
And information has come to us that there may be problems in 
our own house. We have had to find that out by the back door, 
not having been fully briefed.
    Therefore, would you agree to brief this Committee on any 
investigations or inquiries that you become aware of concerning 
leaks or security violations by Congressional staff both from 
the House and Senate? That would come in the form of criminal 
referrals through the Department of Justice or your own efforts 
and any subsequent result, findings, and/or damage assessments?
    Mr. Panetta. Yes, I would.
    Vice Chairman Bond. As I said, we've learned about some of 
these by our own investigative work. And we'll find out about 
it at some point, but we expect you, when you are confirmed, as 
I'm sure you will be, to take the lead and let us know. If 
we've got a problem, we've got to fix it. So we will count on 
you so we won't have to ask the question, but you will come 
forward with it.
    Mr. Panetta. Senator, we are dealing with very sensitive 
issues, and sensitive intelligence, and lives are on the line. 
And I think when people misbehave and reveal those kinds of 
leak information that could impact and jeopardize lives, that's 
a serious matter.
    Vice Chairman Bond. I couldn't agree more. And now, as we 
discussed yesterday, in order for the intelligence community to 
function as we've directed, the DNI must be the top 
intelligence adviser for the President. I think that's in the 
law. And will you ensure that any personal or professional 
relationship you may have with the White House takes a back 
seat, and the DNI, Director Blair, is the President's 
intelligence adviser?
    Mr. Panetta. Senator----
    Vice Chairman Bond. I know it's not going to be easy. 
That's why I want you to--I want you to try.
    Mr. Panetta. You know what, I've spent my share of time in 
the Oval Office. That's not a big deal for me.
    Vice Chairman Bond. Okay.
    Mr. Panetta. I'm fully prepared to allow the DNI to do 
that. And when the President wants me to be there, I'll be 
there.
    Vice Chairman Bond. Further clarification on a question you 
answered yesterday about the use of contractors. Given the fact 
that high value detainees are very infrequently questioned, and 
that experienced interrogators in such sensitive matters may 
not be on the CIA payroll, and you will have to inform yourself 
fully of that if you've not. You mentioned yesterday a lack of 
language skill. Do you believe there should be a complete ban 
on using properly trained contractors under full CIA 
supervision for this purpose?
    Mr. Panetta. No, I wouldn't support a complete ban because 
there are going to be instances where you may have to get a 
certain language ability or a certain capability that isn't in-
house. And if you've got to question somebody you're going to 
have to get somebody who has that capability.
    Vice Chairman Bond. Under the strong supervision of CIA?
    Mr. Panetta. That's correct.
    Vice Chairman Bond. On the detainees, Senators Roberts and 
Brownback and I have introduced legislation requiring Congress 
to be notified 90 days before any action is taken to close 
Guantanamo Bay and transfer detainees to the United States with 
a comprehensive study addressing the feasibility of closing 
Gitmo, including the legal ramifications of transferring 
detainees to the United States.
    Do you agree that Congress should be notified and provided 
with a full plan in advance of action taken to close Guantanamo 
and dispose of these detainees?
    Mr. Panetta. Obviously, there is this review process that's 
going on, and I would think that it would be very important to 
notify Congress as to what conclusions are arrived at, and be 
able to seek your guidance and consult in that process.
    Vice Chairman Bond. Madam Chair, I have another line of 
questioning that's going to go rather long, so I will--well, 
I've already gone over my time anyhow.
    Chairman Feinstein. All right.
    Vice Chairman Bond. I will wait until the next round.
    Chairman Feinstein. All right, thank you. Thank you, 
Senator.
    Senator Hatch.
    Senator Hatch. Well, thank you, Madam Chair.
    I just want you to know that I feel very deeply as--your 
importance, and--and I respect your willingness to serve after 
all these years you've been back here, after all the pain you 
went through in the past in the Oval Office as well as probably 
even worse up here in the Congress. But I appreciate you, I 
always have. And I'm proud to support you.
    But let me just ask you just one or two more questions. 
Correct me if I'm wrong on this, but if I recall, you've 
indicated that the CIA and the intelligence community may have 
a role with regard to globalization issues. What do you mean by 
that?
    Mr. Panetta. Well, you're talking about the economic area. 
I just think that what we're seeing happen as a result of this 
economic recession that's impacting across the world that we 
just need to be aware of what the implications of that are in 
terms of the stability of the world.
    I mean, the best example of that obviously is China, and 
what could happen if they fall below a certain growth level, 
and what kind of stability problems might develop as a result 
of that. I just think we need to have the capacity to be able 
to gather that kind of intelligence and make sure that 
policymakers are aware of what----
    Senator Hatch. Do you consider that part of what the CIA's 
role is in obtaining intelligence, in obtaining secrets that--
some say stealing secrets.
    Mr. Panetta. It's all of that.
    Senator Hatch. I didn't really want to say that, but there 
is something to it.
    Just one last question. In your responses to the 
Committee's prehearing questions, you stated that the CIA 
Director can achieve sufficient independence from political 
considerations by ensuring that there's a system in place to 
produce clear, objective, unbiased, timely and complete 
analysis responsive to the President's needs.
    Do you believe that the CIA has not been producing clear, 
objective and unbiased analysis? I just wondered what you feel, 
because you could go either way on that, and frankly, I'd 
probably go one way more than on the other.
    And in your opinion what safeguards would be included in 
the system you describe?
    Mr. Panetta. Senator, you know, obviously, I guess we all 
have to draw our own conclusions about what happened with 
regard to how intelligence was presented to the President of 
the United States, and whether or not it was intelligence that 
the President and others wanted to hear, or whether it really 
revealed the truth.
    Having been in the Oval Office, I understand that if you 
walk into the Oval Office, you're dealing with the President of 
the United States. The tendency is not to confront the 
President, but hopefully to try to tell the President what he 
likes to hear because you don't want to offend him. You're in 
the Oval Office. It has an intimidating impact on people that 
walk into that office; I've seen that happen.
    But, at the same time, I think the President is badly 
served if he does not have individuals, not only within the 
White House staff but in agencies like the CIA, that are not 
willing to walk into the Oval Office and tell him the bad news, 
tell him what he may not want to hear. That's the role of 
having a CIA present the very best intelligence that has to be 
presented to the President. And it may often conflict with what 
the President wants to do. It may often conflict with what 
policymakers may want to do. It may often conflict with what 
the Joint Chiefs of Staff want to do. But the purpose of the 
CIA is to present that kind of information. And I think we 
violate certainly a commitment to presenting objective, 
independent intelligence if you only tell people what they want 
to hear.
    Senator Hatch. Thank you. You know, there have been a 
plethora of books written about the CIA, many of them highly 
critical.
    Mr. Panetta. Yes.
    Senator Hatch. Which I agree with, and a lot of which I 
think is overstated. But this is a very complex important 
position. And my caution to you is, you have tremendous 
academic credentials. You have great administrative 
credentials, good Congressional credentials. But you haven't 
had a lot of experience in this area. It's a very complex, very 
difficult area, as we all know. But if anybody can handle it, I 
personally believe you can. And I'm just personally grateful 
you are willing to take on this job.
    I just hope that you will continue to help us here on this 
Committee to do our job. We have a very limited amount of time 
to spend on these things compared to the CIA Director and 
others at the CIA. So we need your help, and we hope you'll 
give it. And I know you will, having had lots of experience 
with you in the past.
    Mr. Panetta. Thank you, Senator.
    Senator Hatch. Thank you for your service.
    Thanks, Madam Chair.
    Chairman Feinstein. Thank you very much, Senator Hatch.
    We are joined by the Chairman of the Armed Services 
Committee, also, the second crossover member of this Committee. 
And I'd like to recognize him. Senator, take the time that you 
need, because you missed a couple of rounds.
    Senator Levin. Thank you so much, Madam Chairman.
    Welcome again, Mr. Panetta. Yesterday you said that when 
you get to the Agency, which we look forward to, that you're 
going to be looking at the interrogation tactics which have 
been used and whether those tactics yielded valuable 
information or misinformation, and whether damage done as a 
result of the use of those tactics might have counterbalanced 
whatever information was received. And that's fair enough and 
we think it would be valuable for you to do that.
    But I think it's important that you broaden your inquiry 
when you look at what you call counterbalancing. I want to ask 
you whether you're willing to look at some other aspects of 
this issue that should go on that scale.
    First, Alberto Mora, who is the former general counsel of 
the Navy, has pointed out that the tactics which were used 
damaged our national security down at the tactical or 
operational level in a number of ways. And he cited a number of 
examples.
    First he said there are U.S. flag rank officers serving now 
who maintain that the first and second identifiable causes of 
U.S. combat deaths in Iraq, as judged by their effectiveness in 
recruiting insurgent fighter into combat against them are, 
respectively, the symbols of Abu Ghurayb and Guantanamo.
    Now, so we have flag officers who are commanders who are 
saying that those symbols are the major cause of U.S. combat 
deaths because they helped to recruit people to come to war and 
to attack us. Will you take a look at that testimony and those 
statements of those commanders as part of your review? Because 
if you are looking to see at the balance, did we get any useful 
information, and is it counterbalanced by the--I think as you 
phrased it yesterday--the damage to our country, will you 
specifically take a look at that, what I just mentioned?
    Mr. Panetta. Yes. I think any review process that looks at 
those kinds of interrogation techniques and the value of 
whatever information was brought has to consider the downside, 
and you have just pointed out part of that downside.
    Senator Levin. All right, let me give you some more 
downsides, which I'll ask you if you're going to take a look 
when you're looking at the overall scale here. Allied nations, 
according to Mr. Mora, have hesitated on occasion to 
participate in combat operations if there was a possibility 
that as a result individuals captured during the operation 
could be abused by U.S. or other forces. Are you willing to 
take a look at that downside?
    Mr. Panetta. Yes.
    Senator Levin. Third, allied nations have refused on 
occasion to train with us in joint detainee capture and 
handling operations because of concerns about U.S. detainee 
policies. Will you take a look at that downside?
    Mr. Panetta. Yes, sir.
    Senator Levin. Fourth, senior NATO officers in Afghanistan 
have been reported to have left the room when issues of 
detainee treatment have been raised by U.S. officials out of a 
fear that they may be complicit in detainee abuse. Will you add 
that to your list?
    Mr. Panetta. Yes.
    Senator Levin. Will you also take a look at some of these 
other factors? When I visited our troops in Afghanistan, I 
spoke to one of our senior intelligence officers who told me 
that treating detainees harshly is an impediment, it's actually 
a road block--to use that officer's words--to getting useful 
intelligence from them.
    Now this can happen in a number of ways. One of the ways 
this could happen--and there is testimony to this effect that 
we had at our hearings on torture at the Armed Services 
Committee--one of the reasons this could happen is that you 
actually can increase the resistance on the part of a detainee 
to cooperate, because if you mistreat him or abuse him or 
torture him, that can reinforce the idea that's been placed in 
his head that he will be tortured, and instead of treating that 
person humanely, which can break down that previous training 
that he's going to be tortured, it reinforces that previous 
training and makes it less likely that we would be getting 
information from him.
    Now this is testimony from our people. Will you add that to 
your list of downsides from the use of these tactics?
    Next, we have testimony and there's a great deal of it, 
that when you mistreat or torture people, that they will say 
anything to end the torture, particularly with waterboarding as 
an example. And when they say anything, that means that they 
will give you false information which can then be the basis of 
your taking action which can, because it's based on false 
information, actually cost lives and create injuries as a 
result of acting on the false information which is obtained 
when people will say anything or do anything to end being 
tortured.
    Can you put that on your list?
    Mr. Panetta. Yes, I will.
    Senator Levin. By the way, we have examples of that, or may 
be examples--I've got to be careful here. We don't know why a 
man named al-Libi gave us false information. We're not sure of 
that. But we do know he gave us false information, saying that 
first hand information that the Iraqis had trained al-Qa'ida in 
the use of poison gases. That was used as one of the major 
reasons, the linkages alleged between Iraq and the people who 
attacked us for our going to war. False information, part of 
the reasons used for going to war. So that becomes--and again, 
I'm not saying and I don't know that was the result of torture, 
but we do know it was false information, and that torture 
produces false information.
    So I welcome what you're going to do. I think it's 
important, your review of the use of the techniques and the 
tactics, and to see whether or not the information which may 
have been produced by the use of abusive tactics 
counterbalanced the downsides, as you just put it. But I think 
it's important that you broaden this view. You could look at 
broadening on both sides of the equation. If there's anything 
on the upside, I don't know of it. But if there is any, throw 
that on the balance as well.
    But sometimes it's much too narrow a view taken of the 
downsides of torture. We hear a lot, and properly so, about 
what we stand for as a country, and how we are injured when 
that perception of us is changed to a negative perception, how 
it makes it more difficult to win allies in the war on terror 
when we are perceived as engaging in inhumane treatment 
ourselves. And those are important points, and I've made them 
many times.
    But specifically here, because you're going to get into 
this area when you are confirmed, I think it's important that 
you take a look at the vast number of downsides to our security 
and how we are harmed, and how these abusive practices cost us 
lives. The argument is made, they can save lives. Take a look 
at that, see if it's valid. But take a look at all of these 
downsides that exist.
    And one further one. Just the other day when the 
prosecution of somebody had to be dropped because we had 
engaged in abusive tactics against that person, you know, if we 
lose the ability to prosecute terrorists because of our 
treatment of them, we surely are weakening our own security. 
And this seems to be evident by the acknowledgment by the 
convening authority of the military commissions, Judge Crawford 
who said the charges against al-Kitani could not proceed 
because she had determined that he had been tortured. So these 
are--putting aside all the moral issues, the endangerment to 
our own troops if and when they're captured, when we engage in 
these practices, there are significant threats to our own 
wellbeing and security when we engage in these practices.
    And we look forward not just to your review, which you 
yesterday talked about, but also then, as you also committed to 
do, to keeping this Committee informed of that review.
    Mr. Panetta. Thank you, Senator.
    Senator Levin. Thank you.
    Mr. Panetta. I appreciate all of your comments. This is 
obviously an important area to review. I think, when it comes 
to interrogation, everybody, going back to my days as an 
intelligence officer, everybody kind of had their own views as 
to what was the most effective way to draw information.
    But I think in particular today, considering the situation 
we face in the world, we had better develop those kinds of 
techniques that produce the best kind of information and don't 
provide the kind of down sides that you pointed out. And 
hopefully the review process that I will conduct will look at 
all of these aspects.
    Senator Levin. I believe you yesterday said that in any 
event, whatever this review produces, that you will not condone 
or authorize illegal conduct by CIA personnel or contractors.
    Mr. Panetta. That's correct.
    Senator Levin. Did I hear you correctly?
    Mr. Panetta. That's correct.
    Senator Levin. Thank you. Madam Chairman, thank you so 
much.
    Chairman Feinstein. Thank you very much.
    I believe we're winding down, Mr. Panetta. There's likely 
to be votes at 11:30. I'd like to, just for a moment, follow up 
on what Senator Levin said, and then I think the Ranking Member 
and perhaps Senator Rockefeller has a question.
    I feel very strongly about not using contractors for 
interrogation. I have studied the matter. I think there are 
real problems. Bob Mueller pulled his people out in 2002, and I 
think it was because of what they witnessed going on. I believe 
that any contract with a contractor to do interrogation should 
be severed.
    I think the concept of,``Well, the government will distance 
itself from the person doing interrogation'' is wrong. The 
military does their own interrogation. The FBI does their own 
interrogation. And I believe it was FBI interrogators in the 
1993 World Trade bombings that got a number of convictions 
without torture. And an FBI interrogator that interrogated 
Saddam Hussein was able to get a death penalty sentence, again, 
without torture.
    And, I mean, I've reached the point where this is a 
fundamental question of credibility, because it is a distancing 
of responsibility from the actions taken in the interrogation 
process. I really want your assurance that you will sever these 
contracts.
    Mr. Panetta. You have my assurance that, you know, I want 
to obviously go in and look at the situation and determine 
what's happening. But my approach is going to be to--as I said, 
I think these kinds of responsibilities ought to be brought in-
house, particularly with regards to questioning and 
interrogation. And so my approach will be that this ought not 
to be areas that are contracted out and in which we allow 
others to do the job that we're responsible for.
    As I indicated to the Vice Chair, there may be some 
situations--once we've gotten rid of these contractors, there 
may be some situations where we have to rely on a particular 
ability. But if that's to happen, it has to happen under clear 
supervision of the CIA. And frankly, I think we ought to inform 
this Committee if, in fact, we need to do that.
    Chairman Feinstein. I believe you should as well. Thank you 
very much.
    Mr. Vice Chairman, do you have a comment?
    Vice Chairman Bond. Yes, Madam Chair. I've got about two or 
three rounds of questioning and a comment.
    Chairman Feinstein. Well, we're not going to do two or 
three. Perhaps you can submit questions after----
    Vice Chairman Bond. If there are further questions that 
Senator Rockefeller has, I'll be happy to yield to him. I can 
finish this up very quickly.
    Chairman Feinstein. Good.
    Vice Chairman Bond. And I will have some further questions 
for the record.
    But just for the record, Mr. Panetta, in December we were 
at the facility, the military facility in Afghanistan, and they 
found that two-thirds of their interrogators are contract 
employees operating under the close supervision of U.S. 
military officials. And they did so because those were the 
only, the contractors were the only people who had the ability. 
So your answer to my original question was correct. There are 
instances where you must use them. And we will leave it to the 
Armed Services Committee to look into the use of contractors 
there.
    I want to pursue a line of questions that Senator Coburn 
brought up yesterday regarding former Director John Deutch. 
It's been reported that, as chief of staff in 1995, you backed 
the nomination of John Deutch as Director of Central 
Intelligence. Is that correct? Did you support----
    Mr. Panetta. I was chief of staff, and I think personnel 
actually made the recommendations, and I conveyed those to the 
President, and the President makes that choice.
    Vice Chairman Bond. All right. As we found out after he 
left office, his actions while serving both as Deputy Secretary 
of Defense and the DCI caused grave damage to our national 
security. In 2000, the CIA's Inspector General issued a report 
on Mr. Deutch's improper handling of classified information. 
This report noted, ``CIA records reflect that Deutch had 
problems before becoming Director with regard to the handling 
of classified information.''
    Knowing more about the classified portion of that report, I 
can tell you that quote is just the tip of the iceberg. Much 
lies below the surface. In summary, the Inspector General found 
Mr. Deutch to be a known counterintelligence risk, yet he was 
allowed to serve in two positions, at DOD and as DCI, all three 
requiring confirmations.
    Neither the Armed Services Committee nor this Committee 
were made aware of the risks Mr. Deutch posed to our national 
security. And before he could be prosecuted, he was pardoned on 
President Clinton's last day in office, as were Marc Rich and 
others.
    Can you tell me why, during the time you were chief of 
staff, if you had information on this, neither this Committee 
nor the Senate Armed Services Committee were informed that Mr. 
Deutch posed a counterintelligence risk that would have 
disqualified him from a position with access to our most 
sensitive information?
    Mr. Panetta. Senator, I can assure you that as chief of 
staff I was not aware of any of that information.
    Vice Chairman Bond. With that potential security risk, 
would you think he would be an effective Director of the 
Agency?
    Mr. Panetta. Well, as I said, at the time I was certainly 
not aware of any of that information. He did do his job over at 
the Department of Defense. And, you know, as far as we knew, he 
had all of the capabilities to go in as Director of the CIA. 
Obviously the things you pointed out that have taken place 
after that occurred, looking back on it, it raises legitimate 
concerns.
    Vice Chairman Bond. Did you at any time support or advocate 
a pardon for Mr. Deutch?
    Mr. Panetta. No.
    Vice Chairman Bond. Well, I will ask you to review the IG 
report to see whether he should be holding a security 
clearance.
    Mr. Panetta. Right.
    Vice Chairman Bond. Next, a staff statement to the joint 
inquiry into the terrorist attacks September 11 described some 
problems with the PDD-35 issued in 1995, which established a 
tier system for national security priorities. The staff 
statement noted that as certain threats, including terrorism, 
increased in the 1990s, none of the lower-level tier one 
priorities were downgraded so as to allow resources to be 
reallocated. The end result was that terrorism issues were set 
on a priority--remained on a priority with other existing 
priorities. Did you have any role in the issuance of PDD-35?
    Mr. Panetta. No, I did not.
    Vice Chairman Bond. Were you aware of its existence when 
you were chief of staff?
    Mr. Panetta. I don't recollect that, Senator.
    Vice Chairman Bond. And you don't recall whether you were 
briefed on that----
    Mr. Panetta. No.
    Vice Chairman Bond [continuing]. PDD-35. One of the primary 
criticisms of the pre-9/11 world is that terrorism was treated 
primarily as a law enforcement matter, where much of the focus 
was on arresting and prosecuting terrorists. Do you now believe 
that terrorism is a law enforcement matter?
    Mr. Panetta. I believe it's a national security matter. And 
I think that those walls have come down, and they should come 
down, in terms of dealing with this threat.
    Vice Chairman Bond. All right. The recent Executive Order 
ensuring lawful interrogations currently allows no flexibility 
for interrogating terrorists using techniques outside the Army 
Field Manual. Have you been briefed by General Hayden on his 
view that interrogation techniques listed in the Army Field 
Manual or in other media are not and will not be effective in 
obtaining critical information from well-informed, hardened and 
bright HVTs who have access to a description of these 
techniques?
    Mr. Panetta. I have not. Again, there is a review process 
that's built into that Executive Order that I am going to be a 
part of that will look at those kinds of enhanced techniques to 
determine how effective they were or weren't and whether any 
appropriate revisions need to be made as a result of that.
    Vice Chairman Bond. I would hope you would. And I would ask 
you, do you believe the President has the authority to expand 
upon and supplement this order for the use of lawful 
techniques, lawful techniques, similar to but different from 
the EITs that are authorized in the Army Field Manual?
    Mr. Panetta. As I pointed out yesterday, Article II 
provides a great deal of power to the President of the United 
States. But I believe that whatever power he can exert under 
Article II still is limited by the laws passed by the Congress.
    Vice Chairman Bond. And by treaties and the Constitution.
    Mr. Panetta. And by treaties and by other----
    Vice Chairman Bond. And I think we're all in agreement with 
that. But I would ask you to pay very careful attention to that 
and report back on your findings.
    Mr. Panetta. Right.
    Vice Chairman Bond. And I will submit several other 
questions based on general operations. And I would ask, 
finally, do you think Congress should legislate in the area of 
interrogation techniques, or is this something that must be 
handled by the executive with full briefing, using the Article 
II authority, carrying out the full briefing required by the 
Intelligence Committee?
    Mr. Panetta. I would hope--the preferred way to do that is 
to be able to have the Executive branch implement the 
approaches, but with full consultation with the members of this 
Committee so that Congress is fully aware of what approaches 
are being used and should be used.
    Vice Chairman Bond. We would expect a full briefing. And we 
appreciate very much your answers.
    Madam Chair, I think I'll just give him a few more 
questions----
    Chairman Feinstein. How about in writing?
    Vice Chairman Bond [continuing]. For the record. I will do 
it.
    And when you give us the notifications that we asked about, 
this business of calling up a member of the staff, one of the 
staff directors, and saying, ``Here's some information,'' and 
when they asked for it writing, said, ``Oh, we can't do that,'' 
that day has come to a close.
    Mr. Panetta. It has.
    Vice Chairman Bond. Well, I thank you, Madam Chairman. Most 
of all, I thank Mr. Panetta for taking on a very difficult job.
    As you have seen, we follow the work of the community very 
closely. We want to work with you, because your success and the 
success of the great men and women you will be leading is 
absolutely critical to our national security. So I thank you, 
Mr. Panetta, for being willing to get back into the ring. You 
deserve a lot of credit.
    Chairman Feinstein. I also would like to thank you and look 
forward to your service. We will keep the record open. 
Hopefully the questions will be in by 5:00 tonight, and 
hopefully you will be able to answer them over the weekend. It 
is my intention--I believe we're having three meetings next 
week--to schedule a markup at one of them.
    So at this time the hearing will be adjourned.
    Thank you very much.
    [Whereupon, at 11:28 a.m., the Committee adjourned.]
  

                                  <all>

</pre></body></html>
